<html>
<title> - U.S. SOUTHERN BORDER SECURITY</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 109-119]
 
                    U.S. SOUTHERN BORDER SECURITY--
    NATIONAL SECURITY IMPLICATIONS AND ISSUES FOR THE ARMED SERVICES

                               __________

                                HEARING

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             AUGUST 2, 2006

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13




                    U.S. GOVERNMENT PRINTING OFFICE
32-984                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Ninth Congress

                  DUNCAN HUNTER, California, Chairman
CURT WELDON, Pennsylvania            IKE SKELTON, Missouri
JOEL HEFLEY, Colorado                JOHN SPRATT, South Carolina
JIM SAXTON, New Jersey               SOLOMON P. ORTIZ, Texas
JOHN M. McHUGH, New York             LANE EVANS, Illinois
TERRY EVERETT, Alabama               GENE TAYLOR, Mississippi
ROSCOE G. BARTLETT, Maryland         NEIL ABERCROMBIE, Hawaii
HOWARD P. ``BUCK'' McKEON,           MARTY MEEHAN, Massachusetts
    California                       SILVESTRE REYES, Texas
MAC THORNBERRY, Texas                VIC SNYDER, Arkansas
JOHN N. HOSTETTLER, Indiana          ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
JIM RYUN, Kansas                     MIKE McINTYRE, North Carolina
JIM GIBBONS, Nevada                  ELLEN O. TAUSCHER, California
ROBIN HAYES, North Carolina          ROBERT A. BRADY, Pennsylvania
KEN CALVERT, California              ROBERT ANDREWS, New Jersey
ROB SIMMONS, Connecticut             SUSAN A. DAVIS, California
JO ANN DAVIS, Virginia               JAMES R. LANGEVIN, Rhode Island
W. TODD AKIN, Missouri               STEVE ISRAEL, New York
J. RANDY FORBES, Virginia            RICK LARSEN, Washington
JEFF MILLER, Florida                 JIM COOPER, Tennessee
JOE WILSON, South Carolina           JIM MARSHALL, Georgia
FRANK A. LoBIONDO, New Jersey        KENDRICK B. MEEK, Florida
JEB BRADLEY, New Hampshire           MADELEINE Z. BORDALLO, Guam
MICHAEL TURNER, Ohio                 TIM RYAN, Ohio
JOHN KLINE, Minnesota                MARK E. UDALL, Colorado
CANDICE S. MILLER, Michigan          G.K. BUTTERFIELD, North Carolina
MIKE ROGERS, Alabama                 CYNTHIA McKINNEY, Georgia
TRENT FRANKS, Arizona                DAN BOREN, Oklahoma
BILL SHUSTER, Pennsylvania
THELMA DRAKE, Virginia
JOE SCHWARZ, Michigan
CATHY McMORRIS, Washington
MICHAEL CONAWAY, Texas
GEOFF DAVIS, Kentucky
BRIAN P. BILBRAY, California
                   Robert L. Simmons, Staff Director
               Jenness Simler, Professional Staff Member
               Alex Kugajevsky, Professional Staff Member
                 Loren Dealy, Professional Staff Member
                    Brian Anderson, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Wednesday, August 2, 2006, U.S. Southern Border Security--
  National Security Implications and Issues for the Armed 
  Services.......................................................     1

Appendix:

Wednesday, August 2, 2006........................................    47
                              ----------                              

                       WEDNESDAY, AUGUST 2, 2006
   U.S. SOUTHERN BORDER SECURITY--NATIONAL SECURITY IMPLICATIONS AND 
                     ISSUES FOR THE ARMED SERVICES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Blum, Lt. Gen. H. Steven, Chief, National Guard Bureau, U.S. Army    13
Calhoon, Deputy Chief Patrol Agent Jeffrey A., Yuma Sector Border 
  Patrol, U.S. Customs and Border Protection, Department of 
  Homeland Security..............................................    17
Hancock, Col. Ben D., Commanding Officer, Marine Corps Air 
  Station, Yuma, U.S. Marine Corps...............................    15
Juan-Saunders, Hon. Vivian, Chairwoman, Tohono O'odham Nation....    22
Pineda, Maj. Gen. Antonio J., National Commander, Civil Air 
  Patrol.........................................................    19

                                APPENDIX

Prepared Statements:

    Blum, Lt. Gen. H. Steven.....................................    53
    Calhoon, Deputy Chief Patrol Agent Jeffrey A.................    61
    Hancock, Col. Ben D..........................................    58
    Juan-Saunders, Hon. Vivian...................................    70
    Pineda, Maj. Gen. Antonio J..................................    67
    Reyes, Hon. Silvestre........................................    51

Documents Submitted for the Record:
    [There were no Documents submitted]

Questions and Answers Submitted for the Record:
    [There were no Questions submitted.]
   U.S. SOUTHERN BORDER SECURITY--NATIONAL SECURITY IMPLICATIONS AND 
                     ISSUES FOR THE ARMED SERVICES

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                         Washington, DC, Wednesday, August 2, 2006.
    The Committee met, pursuant to call, at 1 p.m., in the 
Officer's Club, Marine Corps Air Station, Yuma, Hon. Duncan 
Hunter (chairman of the committee) presiding.

OPENING STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
       CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. The Committee will come to order. It's good 
to be here in Yuma, and addressing a very critical, very 
important challenge for America, and we have got a good 
assembly of excellent witnesses and we look forward to the 
testimony today and to the questions from the Members of the 
Congress.
    Before we do that, let me do one thing that I think is 
appropriate at this time, and that is that I was really struck 
last year when one of our great citizens, Yvonne Llanes, and I 
hope--is that the correct pronunciation, Yvonne Llanes.
    Ms. Llanes. Yes.
    The Chairman. Who is the wife of the great Gunnery Sergeant 
Llanes over here, had a very severe accident in a parking lot 
here in Yuma, and saving her life was a team of Marines, some 
retired, some active, and my wife Lynne and I had an 
opportunity to be present when weeks later in the hospital, in 
fact, one of the Marines came in with his family and saw--got a 
chance to reunite with the lady whose life he'd helped to save.
    And, I thought it might be fitting to introduce them at 
this time, and I think Rick Van Curen is here, could you stand 
when I introduce you? He's now a Detective, he's a former 
Marine, now with the Department of Public Safety. Corporal 
James Christian is here, and Corporal Howard Martin, and they 
are standing next to Gunnery Sergeant Darrell Llanes, and, of 
course, Yvonne. So, ladies and gentlemen, let's give some great 
Marines, who have served this community so well.
    Gentlemen, thank you for being with us today, and we hope 
you have the endurance to stay for this entire hearing. We 
really appreciate you, and I want to let you know that the 
values that you learn as United States Marines, to see those 
values manifested on the streets of Yuma, in an emergency 
situation, was really, really heartwarming, I think, not just 
to those of us who know about it from knowing the people, but 
also all the people who read about it in the papers and saw the 
incident on television.
    I think to a large degree that has inspired thousands and 
thousands of people, who when they see an accident, when they 
see somebody who is in trouble, when they see a neighbor who 
needs help, will move as quickly and as efficiently as you guys 
did.
    So, your next job is to go out and recruit some more 
Marines, so that Gunny Sergeant Llanes can get his quota up 
this month. Thank you very much, appreciate it.
    The Committee on Armed Services meets this afternoon to 
learn more about the complexity of providing border security 
along the Southwestern Border and how current border security 
challenges impact the United States armed forces, both active 
duty and National Guard. This is precisely why we decided to 
get out of Washington and hold today's field hearing at the 
Marine Corps Air Station in Yuma, Arizona, and I think it's 
clear now that Yuma is the focus of the entire country, because 
of the central position it takes with respect to this very 
important challenge.
    The mission of the Air Station is to serve as one of the 
Marine Corps' premium and premier aviation training bases. In 
fact, the Air Station supports 80 percent of the Corps' air-to-
ground aviation training. What's more, virtually every Marine 
Corps fixed wing squadron underwent pre-deployment training 
here prior to going to Iraq and Afghanistan.
    However, illegal aliens routinely impact the Air Station's 
ability to perform its mission, by transiting the 2.8 million 
acre Barry M. Goldwater bombing and aviation training range, 
disrupting training operations, and I first learned about this 
several years ago while asking how the operations were going, 
and being told that they were being shut down intermittently 
because of folks who were moving through the range, and because 
of the safety implications of those excursions. The range runs 
along the U.S.-Mexican border for nearly 40 miles. The flow of 
illegal aliens is substantial--imposing real financial and 
readiness costs.
    The National Guard is experiencing an additional impact of 
border security challenges. As you very well know, the 
President announced a five point immigration reform initiative 
in a nationally televised address on May 15th. One of those 
five points, and the most important in my view, is securing the 
border. To do that, the administration plans to increase the 
number of Border Patrol agents from about 12,000 to about 
18,000, and make greater use of barriers and high tech 
surveillance on the border.
    But until Border Patrol has the necessary personnel, 
training, and infrastructure, the President has asked the 
National Guard to step in and provide assistance. Today, we'd 
like to get an operational update on the troops deployed to the 
southern border, particularly in the Yuma sector. How has the 
partnership between National Guard and Border Patrol worked so 
far? What success has this partnership borne? What impediments 
has the National Guard or Border Patrol identified to ensuring 
the success of this activity and how might you address such 
impediments?
    Yesterday, the Committee held a hearing on a similar 
subject at Selfridge Air National Guard Base outside of 
Detroit, Michigan. The Northern Border is very challenging in 
terms of geographical size, terrain, and the volume of commerce 
passing between the U.S. and Canada. In fact, it's remarkable 
to look at that massive waterway and also the major bridges, 
where you have extraordinary traffic, and I thought we had 
extraordinary traffic between the U.S. and Mexico, but Canada 
does, in fact, have a very high volume of commercial traffic.
    Yet, although the U.S.-Mexican border is smaller by some 
2,000 miles than the border between the United States and 
Canada, but that notwithstanding:
    The southwest border exceeds the northern border by nearly 
300 percent with respect to the volume of travelers crossing 
it. On average, the southwest border accounts for over 94 
percent of all illegal alien apprehensions each year. As a 
result, the Border Patrol currently deploys 90 percent of their 
agents along the border with Mexico and deploys a greater 
amount of technology.
    Yet, despite the fact that 90 percent of the Border 
Patrol's agents are stationed along this border, the 
partnership with the National Guard reinforces a point that we 
can all agree on--the Border Patrol can't do it alone.
    Today, we would like to hear how other, less traditional 
organizations such as the Civil Air Patrol (CAP) or Yuma's 
neighbors to the east, the Tohono O'odham Nation, might be able 
to assist in the effort. What issues does each organization 
face regarding policy, planning, resourcing, and contributing 
to border security?
    This is an important topic, one that I have been following 
since the very start of my own career. I am grateful and 
enthusiastic to be able to learn more about this subject today. 
Thank you to the fine men and women here at the Marine Corps 
Air Station who have made this event possible.
    We are very grateful for being hosted here, and I am also 
pleased to introduce our panel in a few minutes. I think we 
have assembled witnesses that will provide more than simply 
routine perspectives on this issue. And, before I introduce 
them, I would also like to thank the Members of the Committee 
who have traveled from their home districts to be with us today 
as we further explore this important topic.
    Mr. Butterfield, thank you for joining us in Michigan and 
for staying with us as we traveled here today, far from your 
home in North Carolina. And, Mrs. Drake, you win the prize for 
endurance for traveling from Virginia Beach this morning for 
the hearing and returning home to your district this evening.
    So, you are going to get some air miles today. We are 
fortunate to have an outstanding Member from Arizona on the 
Committee, Mr. Trent Franks, and a Member from my home state of 
California also on the Committee, Mr. Ken Calvert. And to our 
colleague from the full House, whose district we are in, Mr. 
Grijalva, welcome, sir, and thank you for being with us today 
also. Your constituents here have been every bit as 
accommodating as the folks in Michigan.
    And finally, I know that my good friend, Silvestre Reyes, 
who is the great Chief of the Border Patrol in El Paso, and the 
author of the operation entitled, ``Hold the Line,'' is not 
with us today, Silvestre really wanted to be here, but 
Silvestre had a very interesting experience in El Paso before 
he became an outstanding Member of Congress, and that is that 
one day he decided to stop illegal immigration, and he did it 
without orders or permission from Washington, D.C., and he 
forward deployed all of his Border Patrol agents and, in fact, 
they held the line for a number of weeks in El Paso.
    And, in talking to some of the Immigration officials in 
Washington, D.C., the impression I got was that they were just 
about ready to court martial Chief Reyes, and then they saw the 
people applauding, because after about a day and a half the 
auto theft rate in El Paso dropped by 50 percent, and all of a 
sudden the people were applauding, and Chief Reyes, instead of 
getting court martialed, got the Bronze Star instead.
    So, for all you Marines, you know, sometimes there's a thin 
line between a court martial and a Bronze Star. Chief Reyes is 
an extraordinarily courageous gentleman and a great Member of 
Congress on the Democrat side of the aisle, and I wish he could 
be here with us today, but he's not here, and he's been to 
Afghanistan and Iraq about 12 times, so really an extraordinary 
record, but Mr. Butterfield has got his statement, we will 
enter that, Mr. Butterfield, into the record.
    Mr. Butterfield. I think he wanted me to read it, would 
that be in order?
    The Chairman. Absolutely. In fact, we will ask Mr. 
Butterfield to read Chief Reyes' statement.
    Mr. Butterfield. Thank you.
    The Chairman. But, first let me introduce our witnesses and 
then we will go down the line, and we will take his statement 
first.
    Mr. Butterfield. All right.
    The Chairman. Our witnesses today are Lieutenant General 
Steven Blum, who is the Chief of the National Guard Bureau. 
Thank you, General, you have got a lot of irons in the fire. 
You have got almost 350,000, by gosh, I rode out with you, I 
better get it right, about 342,000 Army National Guardsmen 
deployed, as well as lots of Air National Guard deployed, in 
the war fighting theaters.
    At the middle of that, you had to send a lot of people, 
which you did very quickly and very effectively, to Katrina, 
the biggest natural disaster in our history. You are 
responding, literally, all over the world to military 
challenges and in this country as well, and now you have been 
tasked to assist the Border Patrol and the Department of 
Homeland Security on the border.
    So, you are a gentleman with a lot of missions, and we 
greatly appreciate you being with us today.
    Colonel Ben D. Hancock is a Commanding Officer, Marine 
Corps Air Station, Yuma, United States Marine Corps. Colonel 
Hancock, thank you for hosting us today, always good to be with 
you, and we always enjoy your presence. And, Congressman Rick 
Renzi also sends his hello to you from another part of Arizona, 
he hopes he can get together with you soon.
    Deputy Chief Patrol Agent Jeffrey A. Calhoon, of the Yuma 
Sector Border Patrol, U.S. Customs and Border Protection, 
Department of Homeland Security, thank you, Chief, for being 
with us, we appreciate you.
    And, Major General Antonio J. Pineda, National Commander of 
the Civil Air Patrol, who recently had been engaged in flying 
the border. In fact, a number of folks may know my brother 
John, who saved people from dying in the desert by putting out 
water, and has done that studiously and with great exertion 
over the last many years, has very, very much applauded the 
fact that the Civil Air Patrol is out doing patrols on the 
border, so that these folks that come across when the Coyotes 
tell them that the road is only two miles to the north, and it 
is 20 miles to the north.
    Pretty soon they are staggering around out in the desert, 
and when the Border Patrol gets to them quickly enough they 
save their lives, but having the Civil Air Patrol out there, 
where they can radio in to the Border Patrol when they see 
people out there, is, I think, a really excellent use of the 
Border Patrol, and I have talked to some of your people, we 
look forward to your testimony, but thank you for 
participating.
    And, Chairwoman Vivian Juan-Saunders, Tohono O'odham 
Nation, is that a correct pronunciation, ma'am? Well, thank you 
for being with us.
    Another thing that I'd like to do, and I need to do so that 
Representative Grijalva can ask questions, is simply ask 
unanimous consent that Representative Grijalva be allowed to 
participate with us and just ask questions in the regular 
order. So, without objection, so ordered, and, Mr. Grijalva, 
you are very much welcomed to the Committee, sir.
    Mr. Grijalva. Thank you, Mr. Chairman.
    The Chairman. So, at this time, what I'd like to do is to 
ask our Members of the Committee if anybody would like to make 
a statement. I have already made my statement, I'd like to ask 
Representative Butterfield if he would like to at this time 
read Silvestre Reyes' statement.
    Mr. Butterfield. Thank you, thank you very much, Mr. 
Chairman.
    Let me first join the Chairman in thanking the witnesses 
for coming forward this afternoon to give us your testimony. 
This is a very important day in the life of this Committee, and 
what you have to say to us this afternoon will be very 
valuable. So, thank you, thank you very much.
    I represent the 1st District of North Carolina. I have only 
been in Congress for two years, and so this is a learning 
experience for me, and so I look forward to what you have to 
say.
    We were in Michigan yesterday, and I learned so much, and, 
hopefully, we will do the same today.
    It is good to see my friend to my left, he and I serve in 
Congress together, he's been a great friend and a great leader 
to me since I have joined the Congress.
    But, I have come today to read a statement from Mr. Reyes. 
I am going to read it very quickly. It is about three pages, 
but he feels very passionately about this, and so I am going to 
read it and try to read it as verbatim as I can.
    ``Mr. Chairman, I am pleased to be here today to take part 
in this afternoon's hearing on border security and its 
implications for America's armed services. I also appreciate 
our panel of witnesses joining us today.
    As you know, this hearing is one in a series scheduled by 
the House Republican leadership for the months of July and 
August on border security and immigration. I maintain that 
these hearings are more about politics than policy, and that 
the American people would be far better served if Congress was 
instead working to reach a compromise on meaningful border 
security and immigration legislation.
    However, as a 26 year veteran of the United States Border 
Patrol and a Member representing a congressional district on 
the U.S.-Mexico border, I believe I have a responsibility to 
share my experience with my colleagues, with the hope that 
almost five years after the terrorist attacks of 9/11 Congress 
and the Administration will finally do what needs to be done to 
secure our borders and keep America safe.
    With that being said, I would like to touch on an issue of 
great importance to our national security, and that is the 
readiness levels of our military and particularly of the Army 
and the National Guard. The Guard has been doing exceptional 
things for this country. They have valiantly answered every 
call, and I know that they will continue to perform admirably 
and with great courage in the future.
    I am concerned, however, that we are handicapping their 
other efforts by charging them with this border security 
mission. I am also troubled by the potential for degraded unit 
readiness and shortages of equipment and personnel, which could 
affect the ability of the National Guard to fulfill its mission 
now and in the future. I look forward to hearing from General 
Blum, in particular, on these important issues.
    We also need to be mindful of the fact that to fund this 
new Guard mission, $1.9 billion has been redirected from other 
defense spending priorities. Of course, we would not be in this 
unfortunate situation if Congress had been adequately funding 
the Border Patrol, which is the agency charged with securing 
our Nation's borders, at the necessary levels over the years.
    Since coming to Congress, I have consistently lobbied my 
colleagues for greater resources for border security, including 
additional Border Patrol agents, equipment, and technology; 
more immigration inspectors and judges; and thousands of new 
detention beds so we can end the absurd practice of catch-and-
release of other-than-Mexicans, or OTMs, once and for all.
    Yet in every instance, the President and the leadership in 
Congress have failed to deliver these necessary resources. 
Congress is already 800 Border Patrol agents and 5,000 
detention beds short of just what was promised in the 9/11 Act. 
Clearly, almost five years after the terrorist attacks, the 
Administration and Congress have a lot of work still to do.
    In response to our Nation's border security concerns, some 
people, including my good friend from California, Mr. Hunter, 
have suggested that we should construct several hundred or even 
thousands of miles of border fencing. I respectfully disagree.
    When I was Chief of the El Paso Sector of the Border 
Patrol, I testified before the House Judiciary Committee, 
Subcommittee on Immigration and Claims, that limited, strategic 
border fencing can be an essential tool for curbing illegal 
entries in densely populated, urban areas of the border region. 
Since being elected to Congress almost a decade ago, I have 
supported Mr. Hunter's efforts to facilitate the construction 
of a border fence in the San Diego area.
    Unfortunately, however, there are no one-size-fits-all 
solutions for border security, and that is why I oppose the 
730-mile border fence provision included in the House-passed 
border security bill, as well as proposals for a nearly 2000-
mile fence to run the entire length of the U.S.-Mexico border.
    In communities with large numbers of people in close 
proximity to the border where there would otherwise be 
thousands of illegal entries per day, it makes sense to 
construct and maintain a physical barrier at the border. On the 
other hand, it is simply not worthwhile to build fencing 
through remote desert and other areas of tough terrain, where 
the number of attempted entries is comparatively much lower.
    Instead of building 700 miles of fence at an estimated cost 
of $2.2 billion--an estimate that many believe to be very, very 
low--we should invest that money in the personnel, equipment, 
and technology that will provide a meaningful solution to our 
border security concerns. For example, that amount of money 
would be enough to recruit, train, equip, and pay the salaries 
of enough new agents to double the current size of the Border 
Patrol.
    Not only would construction costs of a 700-mile fence be 
exorbitant, but to guard and maintain hundreds of miles of 
fencing often in remote areas would be a nightmare for the 
Border Patrol in terms of cost, personnel, and logistics. 
Furthermore, depending on the geography of an area, a wall can 
actually be a hindrance to the Border Patrol as they attempt to 
monitor who or what may be coming at them from the other side.
    Also, all of the walls in the world would do nothing to 
address the somewhere between 30 and 60 percent or so of those 
currently in this country illegally who, like the 9/11 
attackers, actually came to the U.S. legally on some kind of 
visa or through other legitimate means, and overstayed.
    Instead, in these more remote areas our limited border 
security resources would be much better spent on additional 
personnel, equipment, and technology such as sensors to create 
what is often referred to as a virtual fence. A virtual fence 
could also be implemented more quickly and therefore could help 
us gain operational control of our borders sooner.
    This approach is preferred by the Border Patrol. Congress 
needs to listen to their advice in these matters, since they 
are the ones with the boots on the ground in the border region 
and are the real-world experts in border security. A wall is 
not a panacea; there is much more that needs to be done to help 
keep America safe.
    With that, I look forward to hearing from the other Members 
joining us today, as well as having the opportunity to talk to 
our witnesses about these issues.''
    Mr. Chairman, as I indicated, these are the remarks of my 
colleague, Mr. Reyes, and I thank you for your patience to 
allow me to read it into the record.
    The Chairman. Oh, certainly.
    Mr. Butterfield. And, I ask that--and also would like to 
associate myself with these comments, and ask that the 
statement be included.
    I yield back.
    [The prepared statement of Mr. Reyes can be found in the 
Appendix on page 51.]
    The Chairman. Certainly, the comments will be taken into 
the record, and I can understand now why my old friend, 
Silvestre Reyes didn't want to personally come to deliver 
those, he didn't want to hear me tell him he was wrong, but I'm 
going to put him down as undecided.
    Mr. Grijalva, do you have a statement you'd like to make?
    Mr. Grijalva. Yes, if I may, Mr. Chairman.
    The Chairman. Please, proceed, sir.
    Mr. Grijalva. Very briefly, and thank you, and thank my 
colleagues on the dias for the opportunity to be engaged in 
this particular hearing. I appreciate it very much.
    Colonel, thank you, and the fine men and women under your 
command, for their hospitality, logistics and support they have 
given to each of us individually, our staffs, and to this 
hearing, appreciate that very much. This hearing has a narrow 
focus, and I think the fine witnesses we will hear from today, 
we need to hear their perspectives, get the information from 
them, and that's appreciated.
    But, I think I'd like to begin, if I may, sir, with the 
obvious, we have a dysfunctional and a broken immigration 
system, and the corresponding pressures that it places on all 
sectors of our Nation, not just our armed forces, not just our 
Border Patrol, not just the Native American communities that 
happen to be in the border, and four of those I represent in 
this district, but also the economic pressures that it's 
placing on our country, and the economic dependency that we 
have on this issue, the human factors, and I want to thank the 
Civil Air Patrol for the humanitarian work that they do on this 
issue. Four or 500 people die every year in District 7, and 
it's a tragedy, and thank you for what you do on that issue.
    The political pressures that it places, and I want to 
associate myself with the comments that Congressman Reyes made, 
we should be about the business of crafting a workable, 
sustaining and fair resolution and solution to the issue of 
immigration, immigration reform, security and enforcement.
    This issue, not only for myself, but I hope for everyone in 
this dias has been a complex, taxing, and all-encompassing 
issue. I would hope, I sincerely hope, that as we go through 
these hearings across this country that the objective is not to 
further divide, the objective is not to further harden 
positions, and that the objective is not to marginalize people, 
that the objective is to be secure, enforce the law, and at the 
same time come up with a solution that is workable, that 
involves earned legalization, and a guaranteed secure access to 
a work force.
    We are in a unique community here. I am very proud to 
represent the border. Yuma lives on the border, its people work 
on the border, the interaction. I understand the focus today 
but I would have liked to hear from people in this community to 
talk about the economic realities, the cost realities, the 
human toll realities. I would have liked to hear from Lorena 
Magana about her perspective as a person involved in this 
issue. I would have liked to hear from Paul Mulhardt about the 
western grower association and what that issue means to the 
economy and the reality of this area.
    We are not going to hear that but I think as we begin to 
try to craft common ground, sensible solutions in the future--
and I hope we get to that point. I sincerely do and I pray we 
do--that we will hear from these people and that they will be 
part and parcel of crafting something realistic, something fair 
and, as I said before, something sustainable.
    With that, Mr. Chairman, I yield back and thank you for the 
time.
    The Chairman. Thank you, gentlemen. We will go to the 
gentlelady who has traveled from Virginia and is going back 
this very day to make an appearance at this important session, 
the gentlelady from Virginia Thelma Drake. Thank you for being 
with us. That is a long haul.
    Ms. Drake. Thank you, Mr. Chairman. I would like to thank 
you, first, for having the meeting for House Armed Services 
Committee to come and to talk about the issues, to see what is 
happening here. The district that I represent in Virginia is 
bordered on the east by the Atlantic ocean so it is completely 
different than the issues you face here in Arizona. That is why 
it is important for us to come to hear your testimony, to see 
members of the public who are here.
    Even though Virginia is not a border state, the issue of 
immigration is the top issue that I'm contacted by our 
citizens. I have had over 4,000 either e-mails, phone calls, 
letters in the year and a half that I have served in Congress. 
I think that shows you just a slice of how important this is to 
our nation, what a challenge the issue of immigration is. I 
believe first and foremost the role of government is to protect 
our citizens, defend our nation, and border security is 
certainly top on that.
    I thank the panel for being here and look forward to your 
testimony as we continue to have this discussion across 
America. Thank you, Mr. Chairman.
    The Chairman. Thank you, Ms. Drake. Nobody does a better 
job on our committee. I know you have a lot of folks in Iraq 
and Afghanistan and lots especially Navy and Marine personnel. 
I know this is a diversion from your regular duties but an 
important thing and thanks for coming. Appreciate it.
    Ms. Drake. Thank you.
    The Chairman. The gentleman from Arizona, Mr. Franks, has 
been an outstanding member of the Committee. Thank you, Trent, 
for being with us and the floor is yours, sir.
    Mr. Franks. Hello, Mr. Chairman. Am I on here?
    The Chairman. You are on now.
    Mr. Franks. Mr. Chairman, sometimes I think that is 
deliberate on somebody's part.
    Let me just first say I want to express my own appreciation 
to you for your presence here. I think it is an indication of 
not only your understanding of the intrinsic connection between 
border security and national security, but it is also a 
statement on your part that you care about this state as the 
Chairman of the Armed Services Committee. It is a rare 
privilege to have someone of that stature in our state and we 
appreciate it very, very deeply.
    That said, I believe it is appropriate that the Armed 
Services Committee would be here on this particular issue 
because, as Thelma Drake so eloquently said, the first purpose 
of the Federal Government is to defend this nation against all 
external enemies. We live in a day where our traditional 
equation of defense has changed significantly since terrorists 
have become so prominent in our thinking.
    Not so long ago the Cold War focused on an enemy that we 
understood their capability and it was very significant but 
their intent was still in question. We, in a sense, placed our 
security to some degree in their sanity. Today we face an 
entirely different equation with terrorism that we understand 
their intent all too well and it becomes our preeminent to 
responsibility to interdict and prevent their capability.
    Consequently, I believe that Armed Services Committee being 
here to consider the issues related to border security and how 
it affects our national security are very simply. Terrorists 
would like nothing better than to exploit our porous border to 
the end that they might do us irrefutable kind of harm.
    If terrorists were able to obtain a nuclear weapon from 
some malevolent source and were able to detonate, say, a 
nuclear weapon in one of our major cities, all of the 
discussion here would change completely. All of the ancillary 
issues would essentially be out of our mind and we would be 
focused on making sure that we protected our border against 
such terrorist incursion in the first place.
    But at that point our markets would be damaged. Maybe tens 
of thousands, maybe hundreds of thousands of Americans would be 
dead, and our concept of weapon would be changed forever. We 
live in those golden hours, I believe, when there is time to 
prevent all of that. I think, as I say, very appropriate that 
this group of people has come together for the expressed 
purpose of making sure that we do.
    I especially want to thank the National Guard and their 
presence here because it is very appropriate that the National 
Guard should guard the Nation and we appreciate you being here. 
Mr. Chairman, again, I just am grateful for your presence here 
and for making this all happen. Thank you very much.
    The Chairman. Thank you, Mr. Franks.
    Mr. Calvert is a great member of the Committee and, Ken, 
thank you for coming down from Riverside. The floor is yours.
    Mr. Calvert. Well, thank you, Mr. Chairman. I just wanted 
to very quickly thank the United States Marine Corps for 
hosting us here today and thank the witnesses. I want to hear 
their testimony. On the way over here I was able to fly over 
the All American Canal which we are going to be mining shortly 
which will help conserve water. And I went over here to the 
Yuma Desalter which you remember back in our younger days when 
they talked about building that and we are going to be firing 
that up again pretty soon. You have a nice day here in Yuma. I 
want to thank the people here in Yuma for hosting this.
    I also want to thank my friends in the Marine Corps. I get 
to represent Camp Pendleton which is a little cooler than Yuma 
but the Marines here are fantastic and the military is doing a 
great job. I am just happy to be here and listen to our 
witnesses. Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Calvert.
    Let me just set the stage as we start out with General Blum 
because a great deal of what the National Guard is going to be 
doing, and is doing, is assisting with fence construction and 
fence repair. The border fence is associated with San Diego. I 
think it is important to tell the story of that fence.
    Before we built the fence in San Diego, we have a 14-mile 
double fence there, we had what was described as a no-man's 
land. It was a place where armed gangs and many of them with 
automatic weapons would rob, rape, and murder mostly the 
illegal aliens coming across the border at night. It was a 
place that was so bad that Joseph Wambaugh, the best-selling 
author, wrote his book Lines and Shadows about the attacks that 
took place there in the evening as the drug people and the 
smugglers of people moved vast numbers of contraband across 
that border.
    In fact, it was so bad that the San Diego police force had 
an undercover group led by Sergeant Lopez who dressed as 
illegal aliens and they would wait for these armed gangs to 
attack them and at that point they would have a conflict and 
perhaps have an arrest or an armed confrontation.
    When we built the double fence we completely eliminated the 
drive-through drug trucks. We had 300 drug trucks a month 
streaming across bringing cocaine to America's children and we 
stopped those cold. We stopped the average of 10 murders a year 
and the countless rapes and attacks that took place on that 
border cold.
    The reason we were able to stop them was because in putting 
the double fence up we took away the one thing that the border 
gangs needed to survive which was transborder mobility. In the 
old days if they were pursued by the border patrol from the 
north, they would go south and they would be safe.
    If they were pursued by Mexican authorities from the south, 
they would go north, they would step over the line and they 
would be safe from them. So when we built the double fence we 
took their mobility away and we put them out of business and we 
saved lots of lives and we saved the tranquility not only of 
the southern neighborhoods of San Diego County, but also the 
northern Tijuana neighborhoods benefitted from that double 
fence.
    Now, similarly we eliminated or we reduced by over 90 
percent the smuggling of narcotics and people across that 14-
mile smugglers corridor. When we did that, that was the most 
prolific smuggler's corridor in America. Lots of people talked 
about lots of ways to bring order to that part of the border 
but we never brought it until we built the border fence.
    Now, what a smuggler has to do to get across the San Diego 
double fence is he has to cross the first fence. He has to then 
go across a wide border patrol, a high-speed border patrol 
road. He then has to sit down with his welding gear in plain 
site on the American side of the border and cut a hole. It 
takes quite a while to do that. If people are around and if 
they have sensors and if they see and if the border patrol is 
on the job, which it is, they are not successful at doing that.
    Today we live in a post-9/11 world. We live in a world 
where over 155,000 of the people that we interdicted last year 
on this border coming across from Mexico weren't from Mexico. 
They came from every country in the world including 1,100 of 
them from Communist China including people from North Korea, 
including people from Iran. We have discovered that people have 
television sets around the world and they have discovered that 
the way to get into the United States illegally now is not to 
come across or not to come into Los Angeles (LA) International 
Airport anymore as they sometimes used to do in the old days.
    It is to come across the land border between the United 
States and Mexico. Together with that we now have a population 
of a quarter million criminal aliens. Those are people who have 
robbed, raped, murdered, committed crimes against people and 
against property in the United States and they are serving time 
in Federal penitentiaries who come from other countries of the 
world. Some of them are very dangerous gangs, so-called MS13s, 
for example. Some of them coming from countries that won't even 
take them back.
    As we talk about fine tuning an immigration bill that may 
in some way solve immigration problems with respect to Mexico 
and the United States, it is clear today that is not the end of 
the problem. There are people that want to come to the United 
States to do harm to American citizens who don't want a job, 
who don't come from Mexico, and who don't have any interest in 
what type of legislation we may be passing with respect to 
immigration.
    I think one thing is clear and I think it has been accepted 
by both major political parties, and that is we need to know 
two things in this country with respect to the border. We need 
to know who is coming across, who it is, and what they are 
bringing with them.
    We don't have that ability today and our experience in San 
Diego when we use almost 75 percent of the entire border patrol 
for the Nation when that was the most prolific smuggler's 
corridor in America, our experience is that once we built the 
double fence, we were able to pull border patrol off that area, 
off that section of the border because the double fence 
leverages your personnel and allows you to patrol the border 
without having to have the thousands and thousands and 
thousands of people who otherwise if you had to have only a 
manpower system, only a so-called virtual fence would work.
    The other aspect, and my friend Silva Reyes mentioned a 
virtual fence, and we are going to want our witnesses to 
comment on that, but in the old days when we would have 2,000 
people rush across the border at a given time and maybe 25 or 
26 border patrol agents would catch 25 or 26 people and the 
other 975 out of the 1,000 would make it across the border and 
disappear up the freeway, that made us realize that simply 
having sensors or bells that rings or whistles that go off or 
TV stations that you can monitor doesn't solve the problem.
    If you have a virtual fence, which is recommended by some 
people, you have to have responders and you have to have 
responders in large number. For example, for the thousands of 
people who came across in those massive transits on a given 
signal, you would have needed thousands of border patrol agents 
at one place at one time and we didn't have them.
    I think the case is being made that it is appropriate to 
have a fence across the southern border. Beyond that the 
National Guard is not just building fence. They've got some 
people that are dedicated to that but they are doing lots of 
other things. To those ends we have focused this hearing on how 
the Department of Defense, but particularly the National Guard, 
can assist in border enforcement.
    We have General Blum with us today. It is interesting to 
travel with this gentleman because his eyes are on Iraq, 
Afghanistan, the Horn of Africa, lots of other places around 
the world and lots of issues. He has taken time from that 
important focus to focus on this southwest border of the United 
States.
    General Blum, thank you for your service to America. Thanks 
to everybody that wears the uniform of the United States and 
particularly your folks in the National Guard. Tell us how the 
National Guard is supporting border enforcement.

   STATEMENT OF LT. GEN. STEVEN BLUM, CHIEF, NATIONAL GUARD 
                       BUREAU, U.S. ARMY

    General Blum. Thank you, Chairman Hunter. Members of the 
Committee, thank you as well. It is my honor to come here today 
and discuss the most recent mission for the National Guard.
    The Chairman. Pull that mic a little closer if you could, 
sir.
    General Blum. As you mentioned, Chairman Hunter, we are 
doing a lot of things around the world but nothing is more 
important that defending our nation here at home. The President 
and the Secretary of Defense have most recently tasked your 
National Guard to assist civilian authorities, in this case 
Customs and Border Protection Agency, to increase the security 
along our nation's borders. The National Guard's mission is not 
a military operation per se.
    It is a military support operation to Federal and civilian 
law enforcement. The lead agency for this, the supported agency 
is the Customs and Border Protection Agency. The National Guard 
will perform a myriad of tasks to enhance the capability of the 
Customs and Border Protection Agency to do their job more 
effectively. The National Guard will not be performing a law 
enforcement function.
    We will not do the Customs and Border Protection Agency's 
law enforcement job. We will do lots of military skill jobs 
that will free other law enforcement agents to do their job 
more effectively. We will provide the eyes and ears for the 
Customs and Border Protection Agency. We will help them with 
what they call tactical infrastructure which are fences, roads, 
barriers, lights, sensors, and other impediments to illegal 
traffic.
    We are not militarizing our border. We are not trying to 
close our border. We are trying to secure our border from the 
illegal activity that you and your committee has alluded to so 
far. We see this National Guard participation as just one facet 
of the President's five point comprehensive immigration 
program. We are certainly not the solution.
    We are part of the solution supporting an agency that is 
also part of the solution. Even the Customs and Border 
Protection Agency efforts is just a part of a larger 
comprehensive plan that has to deal with this complex problem 
of illegal activity in immigration. We are not trying to stop 
immigration. We are trying to control the legal aspects of it.
    We see this as a temporary mission. The Department of 
Defense has agreed to support the Department of Homeland 
Security and provide the guard to do this for up to two years. 
The first year the President has said very clearly that there 
will be up to 6,000 National Guardsmen, Army and Air, along the 
southwest border of this nation in support of this operation.
    This morning I am pleased to say the President would like 
us to reach the 6,000 mark by the first of August. We exceeded 
that. We will ramp down very soon to 6,000 but today we have 
about 6,200 National Guard Army and Air citizen soldiers from 
30 states around our nation that are in the states of 
California, Arizona, and New Mexico and Texas in support of the 
Customs and Border Protection Agency.
    This is not a new mission for the National Guard. Those of 
you that live along the southwest border, as you alluded to, 
Chairman Hunter, was the California Guard that significantly 
contributed to the construction and the establishment of those 
double barrier fences and roads that you talked about that are 
so effective in San Diego sector.
    We will do some of that work here. That will represent 
perhaps 25 percent of our total effort from California to 
Texas. The Yuma sector where we are today represents part of 
the main effort between Tucson and Yuma. Customs and Border 
Protection have asked us to weigh our effort on the Arizona 
sector so we have done that. About 40 percent of the force that 
we have deployed to the southwest border is here in Arizona.
    About 50 percent of the troops that are in the Yuma sector, 
almost half, will be doing something called entry 
identification team work which will be increasing the eyes and 
ears of the Customs and Border Protection Agency. The first 
group that is in here is largely made up of soldiers from North 
Carolina and Virginia. I already have good reports back from 
Deputy Chief Calhoon that these are seasoned experienced 
soldiers.
    Many have done this exact type of work on the borders in 
Afghanistan and in Iraq. They are not neophytes to this type of 
work and they will be hugely helpful in expanding the eyes and 
ears of the Customs and Border Protection Agency.
    Our military readiness is a concern for all of us, 
especially those on your committee, sir, and those in the 
Pentagon. I give you my professional assurances that the 
military readiness of the National Guard will not be degraded 
by this mission. As a matter of fact, a very strong argument 
could be made that it will enhance the readiness of these units 
that are doing these type of operations, not only here at home 
but overseas.
    It will give them real training and the training will have 
a lasting operational goodness and enduring positive effect on 
the Customs and Border Protection Agency. It won't be training 
for training sake. It will be actually routine training for us 
that contribute significantly to the capabilities of the 
Customs and Border Protection Agency.
    The mission will be executed as a state and Federal 
partnership as I think it should be. The National Guard will be 
in U.S. Code Title 32 status which, for those of you in the 
room that don't know exactly what that means, it means that the 
troops will use Federal equipment. They will use National Guard 
units that are completely 100 percent funded and resourced.
    The pay and allowances and the operation and maintenance 
costs of this operation will be borne by the Federal Government 
in the Department of Defense and Department of Homeland 
Security. There will be no cost put on the backs of the 
southwest border states or the states that come in to assist in 
this mission. This will all be underwritten by the Federal 
Government.
    What we have here are Federal resources applied against a 
Federal mission in support of a Federal law enforcement agency 
that has the rightful job of protecting the border. Yet, the 
flexibility is there between the president and the governors to 
let the governors command and control the military forces that 
are operating within their state to accomplish this mission. To 
me it's a model for the way we should be doing business here in 
the United States of America when it comes to homeland defense 
and support the homeland security.
    It is important to also note that this mission will not 
impair our ability to respond to natural disasters, terrorist 
events, hurricanes, or any wildfires, flooding, or all the 
other myriad of normal activities that the Guard gets called 
out to do by their governors. For instance, a perfect example 
is many of the soldiers that are in the El Paso sector this 
morning have been diverted from their border patrol assistance 
mission to assist with saving lives and evacuating people in 
the recent flooding that is going on in the El Paso district.
    As soon as that abates, they will go right back to their 
Customs and Border Protection Agency operation. This is a 
prudent use of the force and it doesn't put American citizens 
or the ability for governors to defend and protect their 
citizenry with their National Guard at risk.
    Once again, your National Guard has been called on for the 
security of this nation and once again we will answer that 
call. We have successfully delivered on time and ahead of 
schedule 6,000 National Guardsmen to support Customs and Border 
Patrol. We are working California, Arizona, New Mexico, and 
Texas. This is a mission your National Guard can do. It is a 
mission your National Guard should do and we can do it well. I 
look forward to your questions, Mr. Chairman, and members of 
the Committee.
    [The prepared statement of Lt. Gen. Blum can be found in 
the Appendix on page 53.]
    The Chairman. Thank you very much, General.
    Colonel Hancock, thank you for hosting us. The floor is 
yours, sir.

 STATEMENT OF COL. BEN D. HANCOCK, COMMANDING OFFICER, MARINE 
           CORPS AIR STATION, YUMA, U.S. MARINE CORPS

    Colonel Hancock. Chairman Hunter, distinguished members of 
the Committee, Marine Corps Station, Yuma, Arizona, it is my 
pleasure to be here today to appear before you and discuss this 
vital issue for the Marine Corps, Department of Defense, and 
our nation.
    Marine Corps Station, Yuma, is encouraged to operate to 
avoid security problems. They have also found some success in 
addressing these issues. My goal today is to discuss these 
issues and successfully have achieved a date. There were 
concerns and few solutions. I just want to address this form 
here, it was authored by the United States Marine Corps for use 
by all Armed Services and some foreign services as they trained 
marines. Currently there are no physical barriers separating 
the range. Numerous illegal aliens cross into the United States 
border areas of southern California mentioned before or parts 
of southeastern Arizona that essentially follows the 
undocumented alien deviation unmarked 47 miles of the border we 
share with Mexico and 52 miles from the base to the border.
    Pedestrian and drug traffic is reported by Customs and 
Border Protection agents and military personnel. The 
enforcement agents are either make an apprehension or 
established a group of vehicles in the hazard areas. 
Historically it has resulted in a loss of range time and at 
times impacted their training events. While illegal pedestrian 
entries continue in high numbers for 2006, increased efforts in 
coordination with Marine Corps Station Yuma and Yuma sector 
have sharply reduced the impacts of training.
    Also, coordination of the Border Patrol and increased 
resources allow us to detect alien presence early, coordinate 
Customs and Border protection response and thereby minimize the 
floor for errors. Marine Corps Station, Yuma has added range 
capabilities to coordinate border protection also with border 
patrol operating one sector, simultaneously while military 
aircraft would do training and range.
    Customs and Border Patrol can also surge its operations in 
close coordination with the Marine Corps. They also support a 
large selection of signs in order to minimize the impacts of 
undocumented aliens (UDAs) on key training events that cannot 
be rescheduled due to events that were prior to 2.1f.
    All have increased Customs and Border Protection efforts 
and coordination downturn vehicle entries and, in fact, 
training but there is more to be done. In close coordination 
with the Customs and Border Protection found through question 
one has been cooperating with the Customs and Border Patrol 
proposal for vehicle variance a virtual wall for intrusion 
detection technology, all-weather patrol improvements for 
timely response. Control plans have often been coordinated at 
the local level to further improve border security and fully 
address the Marine Corps concerns for combat readiness.
    Military aircraft currently uses the entire area right down 
to the border. We work that airspace use agreement with the 
Customs and Border Protection to coordinate military traffic 
and Customs and Border Protection aircraft and helicopters to 
meet commission requirements. Any further control measures 
along the border or airspace strict military use of the 
airspace is a concern to us.
    Marine Corps meets the standards of controlling the borders 
set by the Department of Homeland Security and have worked 
toward their responsibility. Operation control of the southern 
border, our border, on the way back military training through 
the Marine Corps. Marine Corps control of the border is a 
Department of Homeland Security permission and one of 
responsibility. We also have responsibilities to secure 
training areas and to provide for public safety on the range. 
Marine Corps Station, Yuma also has other responsibilities like 
range control, law enforcement personnel, and environmental 
planning to assist the Department of Homeland Security in 
controlling the border to reduce or eliminate training defects.
    Congress reserved our mandate for environmental 
stewardship, management and operational control with the 
Department of the Navy for 25 years up to 2024 under the 
military Lands and Control Act in 1999. Marine Corps Station, 
Yuma takes its environmental stewardship responsibility very 
seriously because departmental stewardship equates to range 
availability and military training on public lands.
    Marine Corps has served the core of the issues that extend 
beyond the direct impacts of combat readiness to include 
potential impacts of the National Wildlife Refugee. Coordinated 
efforts for a fence, a virtual wall, and all-weather road 
access or any other form on the border may be successful in 
enforcing the range.
    Some of the activity can lead to traffic and resulting 
Customs and Border Protection response to this activity may 
increase the impacts to National Wildlife Refuge and presumably 
the resident danger. Past experience has demonstrated the 
necessity of limiting impacts to our neighbor and land 
management agencies which addresses the home.
    Second, I want to talk about the consequences to 
neighboring endangered species we afford protection through 
military training. The best measures can also be consquences 
with redirected border crossing, sound environmental planning, 
and continued coordination of all federal, state, and local 
stakeholders.
     In conclusion, while border security remains a Department 
of Homeland Security responsibility, Marine Corps Station, Yuma 
will continue to support Customs and Border Protection in its 
mission to secure our southern border. Marine Corps Station, 
Yuma's approach has always been to balance the security needs 
of our nation and the Customs and Border Protection mission of 
our stewardship responsibilities for managing the west. Our 
best success has made these consultations result in close 
coordination with the U.S. Customs and Border Protection. 
Marine Corps will maintain its outstanding relationship with 
Customs and Border Protection to achieve our goals of a secure 
border with limited impacts. I will welcome any questions.
    [The prepared statement of Colonel Hancock can be found in 
the Appendix on page 58.]
    The Chairman. Okay. Colonel, thank you very much for a very 
full statement.
    Deputy Chief Calhoon, thank you for being with us today and 
for your service and the service of all your personnel.

STATEMENT OF DEPUTY CHIEF PATROL AGENT JEFFREY A. CALHOON, YUMA 
   SECTOR BORDER PATROL, U.S. CUSTOMS AND BORDER PROTECTION, 
                DEPARTMENT OF HOMELAND SECURITY

    Chief Calhoon. Thank you. Chairman Hunter, Ranking Member 
Butterfield, and distinguished members of the Committee, on 
behalf of the men and women of the Yuma sector, welcome to 
Yuma, Arizona.
    I would like to thank Col. Ben Hancock for hosting this 
event. We truly do have an excellent group working relationship 
with Marine Corps Station, Yuma probably unheralded in the 
civilian law enforcement world with a Federal and military 
unit.
    It is an honor and a privilege to appear before you today 
to discuss our continued efforts along the border in the 
interest of homeland security. The Department of Homeland 
Security and Customs and Border Protection is steadfast in our 
commitment to secure the homeland.
    Operation Jumpstart, a partnership with the National Guard, 
gives CBP an immediate short-term resource that allows 
increased border security while we, the Border Patrol, recruit 
and train additional Border Patrol agents according to the 
President's plan, and implement a secure border initiative.
    Operation Jumpstart will greatly assist us in moving 
forward with our mission as we continue to gain, maintain, and 
expand operational control of the border using the right 
combination of manpower, capital structure, and smart 
technology.
    The key component in the midst of resources needed to 
accomplish CBP Border Patrol's primary mission of preventing 
terrorists and terrorist weapons from entering the United 
States. Infrastructure construction like currently being 
provided at the Yuma sector through our partnership with the 
Department of Defense, and the National Guard most recently, 
includes physical barriers, roadways, and other related 
projects.
    Through the Department of Defense the National Guard 
support to date including three Jump Start projects, the Yuma 
sector has received six miles of all-weather roads, seven miles 
of primary fencing, three miles of permanent vehicle barriers, 
two miles of tertiary fencing, over one mile of high-intensity 
lighting. Our efforts in the Yuma sector have already produced 
tangible efforts and results.
    We are expanding this support with the National Guard, as 
General Blum indicated, in the form of an entry identification 
team, National Guard Eye on the Border, looking in areas where 
we are not, for incursions.
    Last fiscal year, 2,706 vehicles crossed illegally into the 
United States through the Yuma sector's area of responsibility. 
As a result, the Yuma sector was chosen as a pilot site for a 
permanent vehicle following system. This tactical 
infrastructure project combined with a significant increase in 
personnel and aircraft operations contributed to a 50 percent 
decrease in the number of vehicle incursions this year compared 
to the same period last year.
    We recognize there are many challenges that lie ahead for 
us. We are concerned with the level of illegal activity in our 
border area east of Yuma, specifically the Barry Goldwater 
Bombing Range and wildlife area. In this eastern most extreme 
area of Yuma sector is almost four hours driving time from 
Yuma. The Barry Goldwater Range have unique environmental 
concerns and lack the road infrastructure conducive to 
efficient border enforcement operations.
    We must work toward an efficient solution in these areas 
that promotes conservation of our natural resources, allow the 
Marine Corps Air Station to train, and yet enhance our ability 
to secure the border. The men and women of the CBP Border 
Patrol face challenges on a daily basis and we are determined 
to protect the United States border between the ports of entry.
    Our men and women place themselves in harms way to protect 
America, our local communities, and our way of life. I would 
like to thank you for this opportunity to present testimony 
today. I look forward to any questions that you might have. 
Thank you.
    [The prepared statement of Deputy Chief Calhoon can be 
found in the Appendix on page 61.]
    The Chairman. Thank you very much, Deputy Chief.
    Now, General Pineda, thank you for being with us today. We 
greatly appreciate you and the floor is yours, sir.

 STATEMENT OF MAJ. GEN. ANTONIO J. PINEDA, NATIONAL COMMANDER, 
                        CIVIL AIR PATROL

    General Pineda. Good afternoon Chairman Hunter, Congressman 
Butterfield, and members of the Committee. I am Major General 
Tony Pineda, the Civil Air Patrol National Commander. I am 
pleased to have this opportunity to testify on behalf of the 
Civil Air Patrol assets for humanitarian assistance, aerial 
reconnaissance and radio relay. In the course of these training 
missions if our aircrews observe individuals in distress, the 
this training missions supporting U.S. Southern Border Security 
Operations.
    I would like to assure you Civil Air Patrol is the perfect 
fit to support this effort because of the skill, expertise, and 
experience this organization brings to the table.
    Giving you a little bit of history of the Civil Air Patrol, 
first let me tell you who we are and what we do. The Civil Air 
Patrol was founded in December 1941, one week before the 
Japanese attack on Pearl Harbor. Fulfilling a wartime need, our 
organization of 150,000 volunteer citizen aviators helped 
halted the deadly, destructive attacks by Nazi U-boats 
operating in America's coastal waters.
    On July 1, 1946, President Harry Truman established the 
Civil Air Patrol as a federally chartered civilian corporation, 
and Congress passed Public Law 557 on May 26, 1948, making the 
Civil Air Patrol the auxiliary of the new U.S. Air Force. Civil 
Air Patrol was and is still today charged with three primary 
missions: aerospace education, cadet programs and emergency 
services. Today I would like to concentrate my comments on the 
emergency services mission.
    The Civil Air Patrol operates as an all-volunteer civilian 
community asset and the auxiliary of the U.S. Air Force with 
almost 57,000 members. It includes eight geographic regions 
consisting of 52 wings, one in each of the 50 states, Puerto 
Rico and the District of Columbia for a total number of units 
that exceeds 1,500. Civil Air Patrol operates one of the 
largest fleets of light aircraft in the world with 530 aircraft 
and our volunteer members fly nearly 110,000 hours each year.
    Additionally, Civil Air Patrol maintains a fleet of nearly 
1,000 emergency services vehicles for training and mission 
support.
    Emergency services is our niche. Civil Air Patrol conducts 
95 percent of all inland search and rescue in the United 
States, as tasked by the Air Force Rescue Coordination Center 
at Langley Air Force Base, Virginia. The Civil Air Patrol also 
provides disaster-relief organizations and is equipped to 
provide near real-time damage assessment, light transport and 
communications support.
    We perform aerial reconnaissance for Homeland Security and 
assist other Federal agencies in the war on drugs.
    Finally, we maintain the most extensive emergency 
communications network in the Nation with over 16,000 radios 
nationwide with 65 years of experience and the ability to fly 
low and slow Civil Air Patrol crews and aircraft are the ideal 
observation platform. Federal and state agencies frequently 
call on the Civil Air Patrol to take vital damage assessment 
photos to search for crash victims. Our air crews are an ideal 
resource throughout the country because of their experience in 
search and rescue and their ability to provide aerial photos at 
such a low cost. Our customers, especially the U.S. military, 
pay a very small fee for the outstanding service we provide, 
generally less than $120 per flying hour.
    Civil Air Patrol also supported the United States Homeland 
Security last year by taking part in several vital exercises at 
the request of the U.S. Air Force. As a result, Maj. Gen. M. 
Scott Mayes, 1st Air Force Commander, stated, ``Civil Air 
Patrol has become an important partner in our homeland defense 
mission. Because of the cooperation between Civil Air Patrol 
and North American Air Defense Command (NORAD), we're better 
able to meet our nation's requirements for rapid response to 
any threat to our air sovereignty. This kind of teamwork is 
vital to our rapid-response capability. Together, when we're 
called upon, we'll be ready to act, and act fast.''
    The Arizona Border Mission. That same level of Civil Air 
Patrol commitment and cooperation continues today and is what 
we are here to discuss today. At the request of the Chief of 
Staff of the Air Force we have recently increased training in 
Arizona in the anticipation of follow-on taskings.
    Civil Air Patrol is training in Search and Rescue, Aerial 
Reconnaissance and Radio Relay. In the course of these training 
missions, if our aircrews observe individuals in distress, 
appropriate authorities are notified. We are actively 
developing a Concept of Operations so that we can smoothly 
transition to support of the Border Patrol on both borders in 
north and south should the Department of Defense receive a 
request for assistance. The bottom line is the Civil Air Patrol 
is ready to do what we can do to help to protect lives along 
the border.
    Civil Air Patrol began flying these missions along the 
Arizona border on Monday, July 17 through July 31. As you can 
see on Exhibit 1, the numerous locations of aircraft assets in 
the southwest region of our country. Now, taking a closer look 
at Exhibit 2, it shows our southern border mission bases. Our 
initial task was to fly a mission from six locations in Arizona 
and that would be Yuma, Glendale, Goodyear, Chandler, Tucson, 
and Fort Huachuca.
    As of July 25, 2006 Civil Air Patrol volunteers have flown 
100 sorties for a total of more than 300 flying hours at a cost 
of about $30,000 using Civil Air Patrol Cessna C-182 aircraft, 
you see here in Exhibit 3 along with the descriptions of the 
capabilities.
    Beginning July 26, the Civil Air Patrol's New Mexico wing 
joined the effort by providing two additional Cessa 182 
aircraft and one Gippsland GA8 aircraft with aircrews to 
supplement the work being performed by the Arizona wing of the 
Civil Air Patrol. While we have not found any individuals in 
distress, we discovered possible suspicious activity that was 
reported to the Border Patrol authorities.
    For example, on Saturday, July 22, Civil Air Patrol 
aircrews identified two late model vehicles with doors open in 
close proximity to improved roads. They also identified 8 to 10 
individuals near the border and alerted a nearby Border Patrol 
ground team. Further, on Sunday, July 23, aircrews sighted a 
number of abandoned vehicles which they reported to Border 
Patrol personnel.
    Finally, on Monday, July 24, Civil Air Patrol aircrews 
identified a sport utility vehicle (SUV) and two or three 
suspicious persons in wash areas at two different locations. 
Again, both sightings were reported to Border Patrol. Exhibits 
4 and 5 are samples of the aerial photo samples from several of 
these missions. Note the abandoned vehicle shown here in the 
first photo and the makeshift border camp shelters shown in the 
second photo.
    Some of our aircraft are equipped with equipment that we 
can transmit these photos in real time from the aircraft to the 
Border Patrol agents if they have computers in the vehicles or 
in their offices so they can see what is going on. That will 
enable them to also contact our aircraft. The majority of them 
also have global telephones that they can talk right to the 
pilots and send them to other areas if they need to.
    The rainy weather pattern in southern Arizona has been a 
challenge to fly aircraft at low altitude. We believe this 
current weather pattern may be aiding in the safe transit and 
survival of people attempting the border crossings and has 
decreased the number of sightings of people in distress.
    In conclusion, as Civil Air Patrol celebrates 65 years of 
service we are fully prepared for the challenge yet to come. 
Whatever dangers or opportunities lay ahead, our volunteers are 
ready to answer the call with the same patriotic spirit that 
has always distinguished Civil Air Patrol's missions for 
America. I can tell you that Civil Air Patrol is the right fit 
for this mission and remains committed to assisting border 
security operations for long as is needed and will be ready 
when called. However, a couple of issues that may limit our 
effectiveness must be addressed.
    First, as agencies work together on a mission such as this 
one, the effectiveness and outcome of the effort will be 
enhanced by placing one agency in a position of overarching 
authority. This lead agency could then most efficiently and 
effectively orchestrate and direct all operational and support 
activity to accomplish the mission.
    Second, since Civil Air Patrol is a private non-profit 
corporation and the Air Force Auxiliary, should ``Posse 
Comitatus'' apply to operations such as this one? That could 
create a problem because we are limited as to how far we can 
follow any vehicles or illegal activity that may be happening.
    CAP has raised the level of aircraft technology. One 
additional technology is tailor made for border admissions 
which will likely take place at night and will enhance our 
ability would be the existing infrared technology used by many 
law enforcement aircraft today. That particular equipment can 
also be installed in our aircraft to be used on the border.
    I would like to extend my sincere thanks to the members of 
this Committee for your strong and devoted support of Civil Air 
Patrol. As National Commander of this outstanding group of 
citizen volunteers, I encourage you to recognize the fact that 
Civil Air Patrol continues to provide an irreplaceable, 
professional and highly cost-effective force multiplier to 
America.
    Through the voluntary public service of nearly 57,000 
members, Civil Air Patrol makes a priceless and positive impact 
in communities by performing disaster relief and search & 
rescue missions, and also by providing aerospace education and 
cadet programs. Civil Air Patrol serves as a guardian of the 
skies and a skilled resource on the ground, wherever the call 
and whatever the mission. Thank you so much.
    [The prepared statement of General Pineda can be found in 
the Appendix on page 67.]
    The Chairman. General, thank you very much.
    Chairwoman Juan-Saunders, thank you for being with us 
today. We appreciate it.

  STATEMENT OF HON. VIVIAN JUAN-SAUNDERS, CHAIRWOMAN, TOHONO 
                         O'ODHAM NATION

    Ms. Juan-Saunders. Thank you, Chairman Hunter and members 
of the Committee. My name is Vivian Juan-Saunders, Chairwoman 
of the Tohono O'odham Nation. I appreciate the opportunity to 
testify today about our challenges and efforts to protect the 
southern border. The Tohono O'odham Nation is located in 
southern Arizona and comparable to the state of Connecticut. If 
you will look at the map identifying the waterways. Directly to 
the right of that map is the Tohono O'odham Nation. Double the 
37 miles and add one mile and you will have the Tohono O'odham 
Nation.
    We also have aboriginal lands that are part of the area 
there. We also have aboriginal lands that extend into Mexico. 
We have 28,000 enrolled members and 1,400 enrolled members in 
Mexico. The current southern border cuts into the heart of the 
aboriginal lands of our people so consequently we have members 
who reside in Mexico which creates barriers of positive 
influence.
    Also I would like to mention that 75 miles of our nation is 
the largest stretch of miles of any Indian tribe in the United 
States. There are 35 capital tribes located on or near 
international boundaries with Mexico and Canada and the Tohono 
O'odham Nation has the largest stretch.
    I would like to emphasize the importance of recognizing the 
Tohono government as we discuss border policies and formulating 
policies. In 1993 we experienced an effect created by Federal 
policy known as the Gatekeeper policy that increased 
enforcement in Arizona, New Mexico, Texas, and California. 
Consequently, this created a funnel effect for our 75-mile 
stretch experiences 1,500 undocumented immigrants a day 16 
percent of our law enforcement tried to curb this. Today we 
have security officers I have with me assistant police chief 
Raul Chiprador who has served 15 years with the police 
department.
    We have no jurisdiction over border issues. All we can do 
is detain and wait for Customs and Border Protection. They have 
been on our reservation for over 30 years. Prior to the 
Department of Homeland Security and under its umbrella 
organizations, Customs was operating on our reservation for the 
last 25 years. I would like to share that we are part of the 
western corridor. We are in Congressman Raul Peral's 
congressional district. Border Patrol has reported that we are 
one of the busiest court orders on illegal immigration.
    I would like to emphasize that we neither have permission, 
manpower, or the resources to adequately address this crisis on 
our nation. We have worked diligently and cooperatively with 
the Armed Services in supporting their work in protecting the 
southern border.
     Currently we spend $3 million annually of our own travel 
resources addressing these issues. We spent $10 million so far. 
We have received less than $1.8 million of Federal resources. 
When you compare that to what we spent certainly it doesn't 
measure to what we would like to see.
    Tohono O'odham Nation does support the current interest. We 
also recognize that people historically who have traveled to 
the Tohono O'odham nation we have welcomed and we have provided 
assistance. However, today in the 21st century we are 
experiencing the impact and it has become a burden and we are 
caught in the middle of this whole problem.
    On the one hand we have undocumented immigrants heading 
north. We have law enforcement heading south and we are caught 
in the middle. It creates a very high stress level for people. 
I certainly have respect for the years that we have survived in 
this capacity.
    Tohono O'odham Nation does support the establishment of two 
substations on the east and west end of our reservation. 
Otherwise, it would have taken an act of Congress to support 
the efforts of Customs and Border Protection to establish the 
substations that are shared by our police department.
    We have also supported the construction of illegal barriers 
and they are constructed to combat the illegal immigration and 
the illegal use of motor vehicles in the furtherance committed 
on our lands.
    Tohono O'odham Nation is comprised of 11 political 
districts. The two district that are adjacent to the 
international border have supported barriers of fencing. We 
also support the Department of the National Guard. Just 
recently over a month ago the tribal council approved the 
deployment of 90 National Guard troops to be deployed. 
Currently we have 40 who are operating on Tohono O'odham 
Nation.
    One of their tasks will be to help prevent vehicle barrier 
threats. If the Customs and Border Protection erected this 
fence, it would cost $3 million a mile so how can the National 
Guard erect a fence that we are looking at a cost of $400,000 
per mile. Border Patrol engaged in direct consultation with the 
Nation on securing the necessary right-of-way easement and 
culture resource for emphasis and we developed behind 
construction processes and enforcement techniques to prevent 
illegal entry on the Nation's land.
    The 75-mile stretch that I'm referring to has over 93 
archeological sites as well as the already planned national 
monument because it is part of our aboriginal territory we are 
concerned about the 110 archeological sites that we have on the 
property.
    The Tohono O'odham Nation also developed a government-to-
government relationship understanding with Luke Air Force Base. 
The Air Force Base currently uses air space to train F16 
military pilots. We recently visited the base and spoke to the 
commander before he left for Iraq. He served as a vital role in 
training not only pilots from the United States but from the 
Philippines and Italy.
    The Tohono O'odham Nation continues to demonstrate its 
commitment to working cooperatively with the Armed Services and 
their mission to protect the border. In return we request 
respect for our people, respect for our land, and respect for 
our laws. We commend the Committee as you consider ways to 
formalize or institutionalize consultations between Armed 
Services and their relations and interactions with Indian 
tribes.
    The request I would like to make is further discussions on 
institutionalizing consultation between the Armed Services and 
the military. The air force base model is one that I would like 
to recommend highly as a model to use with the Department of 
Homeland Security.
    In closing, on behalf of the Tohono O'odham Nation, I thank 
the Committee for holding this important field hearing and for 
extending the invitation to share our views. I would be happy 
to answer any questions that you may have. Thank you.
    [The prepared statement of Ms. Juan-Saunders can be found 
in the Appendix on page 70.]
    The Chairman. Thank you very much, Chairwoman. I'm going to 
wait for the second round of questions. I think I will yield my 
time to the lady who traveled the farthest today to be here, 
the gentlelady from Virginia, Thelma Drake. The gentlelady is 
recognized.
    Ms. Drake. Thank you, Mr. Chairman. I would like to point 
out to you that Langley Air Force Base, which is your 
headquarters for the Civil Air Patrol, is in the 2nd District 
of Virginia so it is very nice to have you here telling us what 
they do.
    Chief Calhoon, I think in everything we have heard of how 
everyone is interacting together, it just makes me think that 
this really falls on you. I mean, you are the one that is 
responsible for border security so I have a couple of questions 
for you.
    First of all, how is the interaction going? How are you 
able to interact with the various groups and is there anything 
we need to do to make that a more seamless interaction?
    Chief Calhoon. Well, as I said previously, we have an 
exceptional long-term relationship with the Marine Corps Air 
Station. We impact them at significant border areas. Their 
range wardens communicate on our radio frequencies with our 
agents assisting protecting illegal entries of all pedestrians. 
Couldn't ask for a better relationship.
    The National Guard presence here is relatively new since 
about June. The first augmentation of that will be long-term 
support of personnel that have worked in what we would call a 
non-law enforcement role in our communication centers helping 
us fix our vehicles. That is working very well.
    Most recently, as the General indicated, in North Carolina 
and I understand Virginia guarding here what we call local 
entry identification teams which are deployed on the border. 
That was an outstanding product on the part of that unit. 
Having experience in the Iraq operating border they value the 
benefits of training exercises as well as taking part in 
assisting us at the border with the local law enforcement 
agencies and our local Indian reservations, the Quechan Indian 
Reservation.
    Ms. Drake. Mr. Chairman, our Virginia Guard who are here 
are volunteers because we are a coastal state and this is 
hurricane season so we are very proud of them that they have 
volunteered to come and deal with this important issue.
    One thing that we have talked about in Congress, too, is 
whether you should have the authority to look at a border 
patrol auxiliary on the order of Coast Guard auxiliary or Civil 
Air Patrol. Is that something you think you would like to look 
at or you would like us to tell you?
    Chief Calhoon. A decision like that would be made at a much 
higher level than I actually hold at the present time. However, 
the United States Border Patrol values citizen input. We rely 
on sightings and tips from citizens that are phoned into us. 
It's a very valuable tool. We are agreeable to all forms of 
assistance.
    Ms. Drake. Mr. Chairman, before I yield back, because I 
know there are a lot of questions, I just wanted to stress that 
we would like to know if there is something we can do better 
because you are the one who is one the front line and you are 
the one that is responsible. I think we think things are 
working well, when we put them in place but we need to know if 
they are not, if there are things that we can do that make it 
easier to accomplish your job.
    Chief Calhoon. We are looking forward to the arrival of the 
new 6,000 personnel getting them through the system. We really 
appreciate and need the assistance of the National Guard 
helping us to expand our enforcement capabilities. We are also 
looking forward to the implementation of the secure border 
initiative. Whatever that new technology will be will greatly 
enhance our effectiveness. Whatever the Committee could do to 
support those roles would be greatly appreciated.
    Ms. Drake. Thank you. Mr. Chairman, I yield back.
    The Chairman. I thank the gentlelady.
    The gentleman from North Carolina, Mr. Butterfield, has 
made the long run with us here. He was up with us in Michigan 
and did yeoman work up there and came down today. We really 
appreciate your efforts and your dedication to this set of 
hearings. The gentleman from North Carolina, Mr. Butterfield.
    Mr. Butterfield.  It has been a long two days, Mr. Chairman 
and it has been a pleasure traveling with you. You are a man of 
enormous energy. That is a private joke. We won't get into 
anymore detail.
    General Blum, I have said to you privately and I will now 
say to you publicly thank you for your service to our country. 
You are an extraordinary military man and I thank you so much, 
as well as the other members of the military here assembled.
    General, you mentioned today that we are now up to 6,200 
guardsmen. That's the official figure as of today. Is that 
correct?
    General Blum. Yes, sir.
    Mr. Butterfield. All right. So you have essentially met the 
deadline that was imposed on you by the Commander in Chief?
    General Blum.  Yes, sir. In fact, we have exceeded a little 
bit and now----
    Mr. Butterfield. You can level out to the 6,000?
    General Blum.  We will do that in the next few days.
    Mr. Butterfield. All right. Am I correct to assume that the 
Guard will in no way engage in law enforcement activities?
    General Blum.  You are absolutely correct. Our orders from 
the Department of Defense is that we will not engage in law 
enforcement activities. Every governor receiving troops and 
every governor controlling troops here has signed on a 
memorandum of agreement to that effect. While we are in 
operation in this Title 32 status while we could do that by 
law, by policy we will not do that.
    Mr. Butterfield. Do you see your mission changing from year 
to year or do you think it will remain the same?
    General Blum.  I think our mission will change probably 
even more quickly than that and more dramatically. I think as 
we put infrastructure on the border and capability on the 
border in support of the Customs and Border Protection Agency, 
the patterns of illegal activity will alter and change and we 
will certainly adjust to provide support to the Customs and 
Border Protection Agency as they see the need to restack the 
capabilities or relocate the troops and the infrastructure to 
places where the main effort may change over the next two 
years. What we do, I expect, will change somewhat but I do not 
at anytime see us doing law enforcement activities.
    Mr. Butterfield. Would you allocate for me the roles that 
the 6,000 personnel will play?
    General Blum.  Yes, sir. There are about 16 major 
categories where we will be supporting the Customs and Border 
Protection Agency. Some will be, as was alluded to earlier, 
fence construction, road construction, road maintenance, some 
transportation. Entry identification teams makes up in this 
sector in Yuma almost 50 percent of our effort.
    Of the forces that are here in this sector, and they are 
considerable, half of those, almost exactly half of those, will 
be expanding the eyes and ears of the Border Patrol. Some will 
be highly visible so that they have a deterring effect. Other 
will be invisible so that they are very effective in catching 
illegal activity and reporting it to the legitimate law 
enforcement agency, Customs and Border Protection, so that we 
can observe and report both day and night, 24 hours, seven days 
a week, in places where the Customs and Border Patrol were 
unable to observe and unable to communicate so we will be 
providing some communications, augmentation so that can be 
effected. Aviation support to move our people to do aerial 
surveillance both day and night, and also to assist the border 
patrol in some of their movements, engineer work.
    Mr. Butterfield. No searches and seizes?
    General Blum.  None at all. None whatsoever.
    Mr. Butterfield. Even though you have the authority to do 
it?
    General Blum.  We have the authority lawfully to do it but 
by policy and the agreement of the Border Patrol and Department 
of Defense, the National Guard will not arrest, apprehend, take 
into custody, process, or handle detainees or people that are 
arrested or yield by the Customs and Border Patrol.
    What we may do in an extremist condition is self-protect 
ourselves because many of our soldiers will be armed if they 
are in a mission profile that would require them to be able to 
self-protect themselves, or to offer protection to the Customs 
and Border Patrol agents that tend to operate in small numbers. 
They could encounter a situation where one of our entry 
identification teams actually sees a Customs and Border Patrol 
member in duress or having his life threatened. If that were to 
happen, we would, in fact, intervene and take appropriate 
action as any other citizen would have the right to do.
    Mr. Butterfield. Are you familiar with the July 20 
directive from the Commissioner of Customs and Border 
Protection? That is, the provision that gives the authority to 
designate border patrol agents as Customs officers with the 
right to make searches and seizures?
    General Blum.  Yes, sir, I am. That authority, if I 
understand it correctly--help me out there, Deputy Chief. That 
is Article 19. Is that what that is?
    Chief Calhoon. Yes, Title 19.
    General Blum.  Title 19. Congressman, what that is that 
allows the access----
    Mr. Butterfield. Let me just read it to you. I don't want 
to catch you off guard here. ``Authority is delegated to the 
Chief of Border Patrol and to the Chief Patrol Agents assigned 
to the southwest border to designate Border Patrol Agents as 
Customs Officers under 19, thereby vesting such agents with the 
authority under the Custom laws to, among other things, make 
searches and seizures. The exercise of this authority shall be 
confined to Operation Jumpstart.''
    General Blum.  The reason that was done, first of all, that 
will not be universally applied. Certain states have decided 
not to allow that to happen. What that is for is to allow us to 
have the National Guard have legal access to private landowners 
to be able to transit their land or travel on their land and 
this allows us to do that under the umbrella of the Border 
Patrol. In some states that will, in fact, be used in three of 
the states that will not be used. They will seek and obtain the 
land use or the land transit permits from the landowners 
themselves. That is a decision made between the Border Patrol 
sector chiefs and the governors of the states where they are 
operating.
    Mr. Butterfield. Finally, let me ask you this, General. Of 
the 6,200 personnel who are now in the region, do they fall in 
all of the 16 categories or just some?
    General Blum.  The general answer would be all of them. In 
every sector we will be doing entry identification team work 
which is observed and reported. The magnitude is about 50 
percent of the effort. It does vary within the nine Border 
Patrol sectors. In the Yuma sector it is about half of the 
force doing that because of the topography and geography and 
the lack of fencing or roads.
    We need to get eyes and ears out there where we can't do it 
in a mobile fashion or have it channelized by barriers and 
fences right now. Aviation is in all of the sectors. Medical is 
in all of the sectors. Communication support is in all of the 
sectors. General maintenance is in all of the sectors. Engineer 
work is in all of the sectors. Brush removal is only being done 
in one sector. I am trying to be as honest and as specific as I 
can be. The percentages of what we do is driven by the nine 
Border Patrol sector chiefs. They established a priority of the 
assistance that they want. It is not the same in any sector. 
The size of the force is not the same in any sector and the 
task list and the percentage of troops assigned to those tasks 
varies by sector because this border is not homogenous. It is 
quite different. In fact, even the 37 miles that we are looking 
at in this Barry Goldwater Range about 30 of those miles are 
open desert and about seven miles pretty rough restricted 
terrain.
    What we do and how we operate there will be quite different 
and the type of fencing and barriers we employ there will 
probably be modified to the terrain to be effective for the 
terrain. All of that would be decided, frankly, by the Barry 
Goldwater Range and by the Customs and Border Protection 
Agency. The National Guard will try to satisfy the supported 
agencies that we are tasked to support.
    Mr. Butterfield. Thank you. I would hope that if you add a 
seventeenth category of search and seizure, and I hope that you 
don't, but if you decide to expand the authority of the 
Guardsmen, I hope that we would not read about it in the 
newspaper first, that this Committee would have advance notice 
that you are going to do that.
    General Blum.  Sir, if that decision is made, it will be 
made at the Department of Defense level. It will be made at the 
highest level of policy development in the Department of 
Defense and maybe perhaps even higher than that. Right now that 
is where the policy guidance that I have been issued is the 
National Guard will not engage in search and seizure. It will 
not engage in apprehension. It will not do law enforcement per 
se. It will only perform tasks that enable the lawful licensed 
badge-carrying law enforcement officers to more effectively do 
their job and actually serve as----
    Mr. Butterfield. But necessity may call upon us to change.
    General Blum.  If that is the case----
    Mr. Butterfield. If that happens, I would like for this 
Committee to know.
    General Blum.  Oh, absolutely. I will personally inform 
this Committee if that were to happen.
    Mr. Butterfield. Yes. Thank you.
    I yield back, Mr. Chair.
    Chief Calhoon. Mr. Chairman, could I clarify that?
    The Chairman. Absolutely. Go right ahead.
    Chief Calhoon. I believe the purpose of that memorandum was 
to grant authority under Title 19 within 25 miles for the 
purpose of patrolling the border. California opted to use the 
Border Patrol to allow Guardsmen on private property rather 
than seek right of entry grievance with the owner. I believe 
that is what that memorandum is addressing, not necessarily 
conferring arrest authority to the Guard.
    The Chairman. Thank you. I thank the gentleman from North 
Carolina. The gentleman from California, my nearby seat mate 
from Riverside, Ken Calvert.
    Mr. Calvert. Thank you, Mr. Chairman.
    General, how are you distributing your men and women across 
the border from California down to Texas roughly?
    General Blum.  Congressman, off line and not for a public 
hearing I can give you detail to where every soldier is and 
what task they are performing in what geographic region of the 
border. Because we don't want to arm illegals who may use that 
against us for an unintended purpose, let me just say that we 
have taken the request of the Border Patrol per the nine Border 
Patrol sectors that exist along the southwest border and they 
have prioritized our effort and they have guided us where they 
want our capabilities, where they think it will best amplify 
their ability to do their job.
    Mr. Calvert. So roughly it is based on need?
    General Blum.  Yes, sir. It is based on need as determined 
by the people who are here to support the Customs and Border 
Protection Agency.
    Mr. Calvert. The next question, with the fencing that was 
put in California as Chairman Hunter described, the double 
fencing and other fencing that was primarily put in California 
first because of the diligent work of the Chairman of this 
Committee. I have known him for many years. We affectionately 
call it Hunter's Fence down there along the border. Did that 
move a substantial part of the problem east?
    General Blum.  Who are you asking?
    Mr. Calvert. For the record I will ask the Chief.
    Chief Calhoon. Yes.
    Mr. Calvert. Now, from your perspective would you like to 
see that fencing continue to move down the border?
    Chief Calhoon. Yes. In fact, we are working on fencing here 
in Arizona.
    Mr. Calvert. So from the information you have that fencing 
is effective?
    Chief Calhoon. Fencing by itself requires some agents.
    Mr. Calvert. Absolutely. But, I mean, the fencing does work 
as an impediment from the people crossing the border?
    Chief Calhoon. It does. Its greatest value is the build-up 
of urban areas. It does work.
    Mr. Calvert. Representative Franks brought up an issue of 
people other than from South America or Central America coming 
across the border. What individuals have you picked up other 
than from South America across that border that you mentioned 
in open session?
    Chief Calhoon. In the Yuma sector we have apprehended 
aliens from about 35 different countries from primarily Central 
and South America.
    Mr. Calvert. Anyone from outside of Central and South 
America?
    Chief Calhoon. Yes. There are European and Communist 
countries that are occasionally apprehended.
    Mr. Calvert. Anybody from, let's say, Syria, Iran?
    Chief Calhoon. I would have to get back to you on that 
issue. It is only my 45th day in the position and I am kind of 
weak on Yuma this week.
    Mr. Calvert. If you can get back to us. Maybe some 
gentlemen here in the back have some information. The 
individuals that you have apprehended, were they here across 
the border to get a job picking tomatoes?
    Chief Calhoon. No indication that they were going to pick 
tomatoes.
    Mr. Calvert. Do you have a standard interrogation process 
of individuals like that that come across the border?
    Chief Calhoon. A Syrian would be referred to the joint 
index center and be interviewed by an FBI agent and an ICE 
agent as to what is intent is, who he is, who he might be 
associated with because he would be an alien from a special 
interest country.
    Mr. Calvert. And that information has not been made public 
as far as the amount of individuals, the purpose or reasons why 
they attempted to come into the United States?
    Chief Calhoon. Not to my knowledge. I am not aware of a 
public statement made regarding that.
    Mr. Calvert. I would like to pursue that. The other issue 
is, I co-chair the Methamphetamine Drug Caucus in the House 
which means that we are trying to stop the utilization of meth 
in the United States. It used to be much of the methamphetamine 
that was consumed in the country was made in small drug labs 
throughout the United States.
    We understand now that upwards to 90 percent of all 
methamphetamine now is coming across the border into the United 
States. These drug gangs are getting more and more dangerous. 
Can you describe for the Committee what kind of weapons that 
these drug gangs are using that come across the border?
    Chief Calhoon. In the Yuma sector we have encountered 
smugglers with handguns as large as 44 caliber,. some long-arms 
and some shotguns.
    Mr. Calvert. Now, in some other sectors you may be familiar 
with are they using fully automatic weapons?
    Chief Calhoon. I was stationed in Nogales, Arizona last 
year when two agents were shot by narco traffickers. The 
investigation revealed they were shot by 30 caliber semi-
automatic rounds.
    Mr. Calvert. Okay. I have gone over my five minutes but one 
other question that maybe both the Civil General you could 
answer and also General Blum. You mentioned ``Posse 
Comitatus.'' Since 9/11 there are some people who think we 
ought to relook at Posse Comitatus and maybe amend it in some 
way or change it in some way based upon today's reality. Do you 
think that is something we should look at?
    General Pineda. Absolutely. No doubt in my mind.
    Mr. Calvert. General Blum?
    General Blum.  I have a differing opinion. I have 
consistently said we have 460,000 citizen soldiers that are 
trained and disciplined and are not subject to Posse Comitatus. 
That can be used in this country to do law enforcement. If the 
President and the Secretary of Defense so decided, you could 
take the entire National Guard and put them in Title 32 
anywhere in this nation and use them as a law enforcement 
officer under the laws of each of the states and territories of 
our nation. In my mind unless we have a situation that would 
require more than a half a million armed and trained soldiers 
and airmen in support of civil law enforcement, I would not 
change a law that has served this nation well for nearly 150 
years.
    Mr. Calvert. Thank you.
    The Chairman. Will the gentleman yield on that question?
    Mr. Calvert. Yes.
    The Chairman. I saw, General, where you said you thought 
this law--for people who don't know what the Posse Comitatus 
is, it is a law that was derived after the Civil War that said 
that military forces could not perform civilian law enforcement 
functions; namely, arresting people. I have heard the issue 
that some people have said the Civil Air Patrol can't be flying 
over the border looking for people on the basis that somehow 
violates this ancient law.
    We have looked at that and when the military got into the 
drug war because the drug smugglers were overwhelming Customs 
at one point because they had the faster airplanes, they had 
the automatic weapons, they had the sensors, they had the 
communication, we brought the military in. Our lawyers looked 
at this thing carefully and we came to the conclusion that a 
military aircraft, a Black Hawk helicopter, can follow a drug 
plane down and follow him even as he taxies to a halt on some 
remote air strip.
    As long as a Customs agent or a Border Patrol agent gets 
out and makes the arrest, the driver of that Black Hawk 
helicopter can be a military guy. I think that a pretty 
strained argument has been made by some people that don't want 
you folks participating if they claim that flying a thousand 
feet above the earth taking a picture with a camera is 
arresting somebody.
    You are certainly not arresting somebody. You are not 
coming in any contact with them. You are not exerting any force 
on them. General Blum, do you have any opinion on that? Do you 
think that would fall under that restriction just for flying 
over and basically----
    General Blum.  No, sir. I don't, but I would also caution 
and say that is my best professional opinion. I think it would 
probably be best to get somebody trained in law a little bit 
further than I am. I am very familiar with Posse Comitatus and 
the provisions of it. The National Guard is not restricted when 
it is under the command and control of the governor by Posse 
Comitatus. What I am saying is you have about half a million 
people that could augment civilian law enforcement local, 
state, or Federal on any given day.
    What you are describing is not really hands-on law 
enforcement work. It is really you are observing and reporting. 
It is just like we are doing with these entry identification 
teams. We are observing and reporting and we are not arresting. 
We are not apprehending. We are not searching. We are not 
seizing or any of those things.
    We are strictly in a support position so that we can 
provide that information to the lawful licensed law enforcement 
agency to go out and make the arrest, make the apprehension, 
detain the individuals, take them into custody, and then 
process them so the chain of custody and the rights of the 
individual are protected in that process.
    The Chairman. And one reason we wanted you folks to make 
these border surveillance runs is to also if you saw the 
people, the 400 people who die in the desert each year from 
dehydration and sunstroke, if you could see people in 
distress--I know you didn't mention that because that was 
tasked to you during this training--you could report that back. 
Thankfully you didn't see any people in this last couple of 
weeks but we certainly don't want some legal argument keeping 
you from flying what also is a humanitarian mission.
    General Pineda. Absolutely. I would like to make a 
clarification.
    The Chairman. It is Mr. Calvert's time so go right ahead.
    Mr. Calvert. I would be happy to let you continue.
    General Pineda. If I may, I would like to make a 
clarification. I agree with General Blum when it comes to that. 
In my civilian life I am a 35-year-old law enforcement officer 
so far. In two years hopefully I will be able to retire but 
right now I have to agree with him that it is going to take 
quite a bit of training to do that part.
    When I said ``absolutely'' I was referring to the ability 
of the Civil Air Patrol to be able to perform those 
humanitarian missions. Right now if we see persons crossing 
from Mexico, we can follow them 25 miles into the United 
States. If we see the same persons on the United States side, 
we can't follow them anywhere. All we can do is just fly over, 
report them to the U.S. Border Patrol, and leave the area. That 
is what I am talking about. But I do agree with the General, 
the other way will take a lot of training and a lot more 
complex.
    Mr. Calvert. Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    The gentleman from Arizona, Mr. Grijalva.
    Mr. Grijalva. Thank you, Mr. Chairman. I will move around 
with some questions. I hope my questions are as brief as some 
of the answers and we will take it from there.
    There was a report that was done, a recent report that was 
done, on border security to the Select Committee on Homeland 
Security in the House. There was a statement in there that 
said, ``Like squeezing a balloon. The policy has moved illegal 
immigration from one sector to another without decreasing the 
overall volume of illegal crossings.''
    I mention that because I think we are talking about some 
hindsight issues, if I may, in terms of the military and their 
relationship to Homeland Security and Border Patrol. That is, 
that the collaboration happens, I think, while policy is being 
developed so that like the Barry Goldwater Range.
    We are not dealing with the consequence of undocumented 
crossings when we knew that was an unintended consequence of 
shifting certain enforcement prerogatives in certain areas. I 
comment because I think that is a part that this learned 
Committee could look at is how are you going to coordinate and 
how are you going to have that collaboration prior to and not 
deal with the consequences after the fact. I mention that.
    The other issue I was going to ask General Blum. In a 
newspaper, and that gives you the opportunity every time I say 
newspaper quote. Unfortunately I am quoted correctly but you 
might not have been so I'll give you that opportunity. ``More 
than two-thirds of the Army National Guard 34 brigades are not 
combat ready.'' That was the beginning of the story. ```It will 
cost up to $21 billion to correct the top National Guard,' the 
General said Tuesday.'' That dealt with equipment shortages 
primarily. ``Further behind or even more dire situation than 
the active Army but we both have the same symptoms. I just have 
a higher fever.''
    You said earlier in your testimony that in some way this 
deployment of 6,200 is not affecting readiness and could 
potentially enhance that. Is there a contradiction between what 
is written in the press and what you just told the Committee?
    General Blum.  Well, what is written in the press was taken 
out of context and it could lead you to a wrong conclusion.
    Mr. Grijalva. That is why I asked the question.
    General Blum.  It is well documented and I have said many 
times, in fact, in front of Chairman Hunter's Committee, that 
the National Guard as a deliberate policy or strategy was 
under-resourced for about four decades when we were a strategic 
reserve. We are an operational force and have been for the last 
at least six years and will probably be for the foreseeable 
future.
    How we resource the National Guard, how we provide money 
and equipment to the National Guard has to be done in a 
different manner than it was done for the previous time when we 
were strategic reserve. Now that we are deployed overseas and 
deployed back here at home, we have to make sure the soldiers 
and airmen have the equipment they need to do the job overseas 
and that is being done superbly well.
    We also need to put that same kind of attention into 
equipment that is back here at home that will be needed tonight 
or in the next 10 minutes if a tsunami or a hurricane or forest 
fire or we have to respond to some terrorist event here in the 
United States. Having said that, I am glad I had the 
opportunity to correct the record or make it more clear.
    Everyone knows that the National Guard is at least $21 
billion under-funded to purchase the equipment it does not 
have. If the Army redistributes equipment, I don't need that 
much money. I only need the money to buy what they do not 
provide the National Guard in kind. In other words, if I need 
three trucks and they give me two trucks, I need the money to 
buy the third truck. Right now to buy down the list of what the 
National Guard actually needs over the next few years or the 
next five years is $21 billion.
    The Army understands that, the Army accepts that, and the 
Army has rolled up our requirements within the total Army's 
requirements so that its active guard and reserve requirements. 
I realize this is a little bit outside of what this hearing is 
about but since you asked, I wanted that cleared up.
    Mr. Grijalva. No. The point being that this deployment of 
6,200 of your troops along the border, my question was to 
extend that readiness to them as well.
    General Blum.  Let me put it in perspective. 6,200 people 
is less than 2 percent of the force. We are doing that not by 
mobilizing them and taking them away from their homes for a 
year or a year and a half. They have to pull two weeks of 
annual training and two to three weeks every year. What we have 
done is said, you know what, to come all the way to the 
border----
    Mr. Grijalva. And the percentage. Could you break it out 
for percentages for me? What percentage of that troop 
deployment of the National Guard ends up in the Yuma Tucson 
sector?
    General Blum.  Forty percent of the 6,000 the first year 
initially will go into the Tucson Yuma sector. Whether that 
will stay that way will largely be determined by how the 
illegal activities react to that deployment. If all nine sector 
chiefs say, ``Yes, we have it about right,'' we will probably 
leave it that way. But if Deputy Chief Calhoon comes in and 
says, ``We can reduce the force in Tucson. We need to move more 
to Yuma,'' then we will do it.
    Mr. Grijalva. Let me just reclaim my time. July, that is 
not the peak month in terms of the activity you have to deal 
with. September and October, those months become peak months. 
That is my understanding. Correct me.
    Chief Calhoon. Yes, the summer is inactive. The previous 
two fiscal years in Yuma were record Julys and not according to 
the trend. Last July was a record month.
    Mr. Grijalva. While I have you, let me just ask you one 
question. The Chief of U.S. Boarder Patrol, Mr. Aguilar, 
testified at a hearing before this Committee in response to a 
question by the Chairman about the need for border fencing. 
Chief Aguilar said, ``If what I'm being asked is that a fence 
has to be across an entire 2000 mile border with Mexico, the 
answer is no. I have repeatedly advocated for giving the Border 
Patrol the right mix of resources given the situation sector 
needs and priorities.'' Do you concur with that statement?
    Chief Calhoon. That is correct.
    Mr. Grijalva. And you also said that tactical 
infrastructure alone, in your written testimony, will not 
secure the border. Can you amplify on that a little bit?
    Chief Calhoon. Our fences have continually been compromised 
on the border for decades. It still requires agents behind that 
fence to assure that those people that circumvent get 
apprehended. A fence by itself requires agents. Otherwise, it 
would be useless.
    Mr. Grijalva. If I may ask, Mr. Chairman, just for 
indulgence for a second just to ask the Chairwoman one 
question. With your tribe being the most prominent in terms of 
the responsibility they carry in terms of the 75 miles. Other 
tribes are being impacted as well but not to the degree.
    One of the suggestions have been to Homeland Security and 
potentially the Department of Defense if that there be a 
straight funding mechanism established that deals with 
sovereign nations and their cooperation and work and 
consultation and resources and expenditures that they are 
utilizing out of their coffers to deal with this issue of 
border security. That has been a conversation people have had 
and I would just like your reaction to that.
    Ms. Juan-Saunders. We currently do participate in regional 
groups in the state of Arizona. However, we have initiated 
legislation to provide required funding to each tribes' 
respective locations. That is some of the recommendations that 
we have allocated with different notary individuals while we 
were in Washington this week.
    Mr. Grijalva. Mr. Chairman, thank you. Let me just take 
time to thank you for your courtesy and the Committee for 
allowing me to be part of this meeting and this hearing and 
also to welcome you. I didn't do that at the initiation to Yuma 
and to District 7 and southern Arizona. Thank you very much.
    The Chairman. Well, Mr. Grijalva, thank you for hosting us 
here. Speaking of hosting us, I see Mayor Larry Nelson. I have 
got to tell everybody that Mayor Nelson went with myself and a 
number of other people, a quarterback for the Chargers and Roy 
Tyler here of Tyler's Taste of Texas, and one or two other 
folks to Louisiana on a rescue mission with rescue task force.
    The Mayor and I went in an airboat through the city passing 
out food to the National Guard and to the people that were 
having problems there. The Mayor personally carried many beds--
helped to pay for many beds that went into the refugee center. 
Mayor Larry Nelson, thank you for your contribution. I do want 
to note that the Mayor and I competed with Roy Tyler.
    We were trying to rescue people off roofs. We didn't rescue 
any people in our airboat but we did rescue a Cocker Spaniel 
and I got an assist. Roy Tyler over here, though, got two 
points for rescuing the Cocker Spaniel. He did leave the Pit 
Bull behind. Good choice. Mayor Nelson, I don't know why I 
digress like that but I saw you there and Mr. Grijalva in 
mentioning the Yuma reminded me. Thank you for letting us be in 
your great city.
    At this time let me go to Trent Franks, also a great 
members of the Committee. Trent, do you have any questions you 
would like to ask?
    Mr. Franks. Thank you, Mr. Chairman. Again, I would just 
express appreciation for all of you being here and for what you 
do. Is my microphone doing that again, Mr. Chairman?
    The Chairman. It is a conspiracy.
    Mr. Franks. I told you it was a conspiracy when we started. 
Again, I express that appreciation.
    Colonel Hancock, if it is all right, I will start with you. 
You are sort of a hero to Arizona. You have been involved in so 
many different things. You have flown in the Blue Angels. You 
have kind of carried on a family tradition of the military 
service. I want you to know we all appreciate it very, very 
much.
    Having said that, you know, one of the things that struck 
me was not only a cooperation it seemed like between the Marine 
Corps and the Homeland Security Department but almost a 
comraderie between you and the representatives there. That 
said, I know there have been a lot of reports related to 
illegal immigration impacting the various missions supported by 
the Barry M. Goldwater Range whether it be Luke Air Force Base 
or the Marine Corps Air Station. Can you put that in some kind 
of perspective for us?
    Colonel Hancock. Sir, about 2003 we started to see a pretty 
significant impact. 2002 to 3 and 4 were pretty significant 
years as far as total numbers of aliens crossing the Barry M. 
Goldwater Range. Last year we had about 17,500 aliens attempted 
to cross the Barry M. Goldwater Range. We started a pretty good 
impact on training because of the lack of range time. The range 
was open 24 hours a day and seven days a week. We saw a pretty 
significant chuck of that, 12 percent, I think, 2004, or 15 
percent as far as range time lost.
    We can't use the range 24 hours a day, seven days a week as 
far as military. The reason we exist is because of the ranges. 
Ranges out in the west provide for training. Everybody comes 
out here who wants to train. Everyone nationwide if they are 
going to Iraq, the Marine Corps units and National Guard units 
come to Yuma, Arizona to train in survival. The impact to 
training was we saw last year 45 events, actual training 
events, impacted due to direct union aid activity or the result 
of law enforcement.
    Most of our aerospace out there we don't drop bombs. When 
we serve hazard areas we use weapons, lasers, etc. We are 
mostly and mostly concerned with folks on the ground whether 
American citizen recreation, folks lost, in the wrong area, 
etc., or aliens or law enforcement to get along with. We saw 
the peak of that about 45 events affected.
    A new concern for us is to continue the course since then 
and get better coordination from the Boarder Patrol that have 
been here and the Air Department, too, and better 
collaboration, better support of arms and ranges, increase in 
communication suites where the Border Patrol is at, where the 
agents are at. We are more likely to shut down certain portions 
of the range where they are operating if we know they are out 
there. Aircraft will continue to fly while supporting the 
range.
    To see that impacts 45 events last year, now this Task 1 
for the month of July just ended one training event in that 
group for the month of July. Since December of 2005 a 
substantial range operation center which gives us better 
support for Border Patrol, real-time coordination. We have seen 
a significant decrease in training events. Less than 1 percent 
of sorties in six months have been affected. It has been very 
significant with the dual efforts of the Customs and Border 
Protection and Marine Corps getting control.
    Mr. Franks. That is good that there is a little good news 
once in a while. Thank you, Colonel. Thank you for your 
family's service and for your personal service to the country.
    Deputy Chief Calhoon, let me just ask you, sir, I had the 
privilege of touring this Yuma sector here about two months ago 
with the President of the United States. At that time, if my 
memory serves me correctly, there was an indication that about 
160 individuals had been interdicted between January or the 
first of the year and approximately two months ago. The 
indications were that they were from countries that either 
supported or performed terrorism. Does that meet with your--you 
said that you might not have those exact numbers but that seems 
significant to me.
    Chief Calhoon. That actually seems like a national figure. 
I'm not sure. The Yuma sector is smaller than 160 special 
interest interdictions.
    Mr. Franks. What percentage of 160 be of your total 
interdictions?
    Chief Calhoon. It would be about 10 percent. I'm sorry, 
about 1 percent.
    Mr. Franks. Okay. Related to that, if you have an 
interdiction, what is your assumption of how many people come 
over without being interdicted? Is it about two to one?
    Chief Calhoon. These days we have a proactive intelligence 
gathering network where we actually estimate how many people 
enter, how many people are apprehended, and how many people get 
away. We are more efficient this year than we were last year. 
We are arresting more people, turning back more aliens, and 
interdicting more vehicles than we did last year. For the month 
of June we were down nearly 50 percent in apprehensions while 
we were 26 percent above last year's average in the second 
quarter of this year. Since June there has been a dramatic 
impact in tracking illegal activity on the border. The border 
is more secure and we are more efficient on the border today.
    Mr. Franks. Let me just ask this last question then. It is 
kind of two-part. What you attribute that to is it partly 
General Blum's fault over here? If there is any one thing that 
the Congress could do either some sort of statutorial action or 
whatever else might be of support to you, what can we do to 
make the job of the entire panel more effective and successful?
    Chief Calhoon. To address the first part of your question, 
there are multiple events occurring that probably impacted 
illegal activity on the border during the month of June and 
July. The biggest impact we believe was the news worthiness of 
the headlines. My boss here believes that was a big factor was 
the Army National Guard being deployed.
    Mexico just went through an election that was highly 
contested and they are still debating. It is very possible that 
detained people in Mexico who might have crossed, as well as 
some recent trends. Let me go into the history. The traditional 
way that someone would pay for being smuggled into the country 
was after the fact.
    After he got to where he was going he would work and pay it 
off. There are some indicators now that gangs and smugglers are 
requiring some money up front so that is a new occurrence. 
Also, that illegal aliens could contribute to a hike in the 
crime rate. That could also be directly related to the 
difficulty to cross or whether the National Guard on the border 
are much more efficient Yuma sector Border Patrol.
    Mr. Franks. Thank you. Mr. Chairman, it sounds like that 
spells a little bit of progress to me. Maybe I am just not 
hearing carefully here.
    The Chairman. I thank the gentleman. I think it does.
    Mr. Butterfield, did you have any further questions you 
would like to ask?
    Mr. Butterfield. Yes.
    The Chairman. Okay. Go right ahead.
    Mr. Butterfield. Very briefly. General, I want to get back 
briefly and I am not going to dwell on much longer but the 
6,200 personnel that we have been talking about, and you are 
going to try to get it down to 6,000, do they include any 
personnel in transition? That is what I am trying to get 
settled.
    General Blum.  Oh, yes, sir. I am sorry. I may have missed 
the intent of your question.
    Mr. Butterfield. I am not sure I know what ``in 
transition`` means. I know there is a category for in 
transition.
    General Blum.  For instance, I am counting the Virginia 
National Guard, the Maryland National Guard that is arriving 
while we are speaking as part of that 6,200 that are here 
today. They obviously will not be working for the Border Patrol 
today. It will take them a couple of days to get oriented and 
briefed and make sure they understand the rules of the use of 
force, make sure they understand that they are briefed on the 
cultural sensitivities of this mission and that will be done by 
the Border Patrol people and our permanent party people or our 
duration party people here in Arizona to make sure that 
everybody gets the same orientation. They are coming from the 
middle Atlantic states. They are unfamiliar with the----
    Mr. Butterfield. Has my state arrived yet?
    General Blum.  Your state is already working. Your state is 
already receiving laudatory comments from Deputy Chief Calhoon 
because they were ready to go. They arrived sooner. They have 
gone through what I have just described there in place and they 
are out there doing their job now. Of the 6,200 a great 
proportion, the great majority of the soldiers have already 
transitioned and are under their command and control performing 
the missions, the 16 major task missions that I described 
earlier in direct support of the Customs and Border Patrol. As 
the others move out of the training and orientation classes, 
they will be picked up and taken by their chain of command and 
placed in the sectors to perform the missions that the Customs 
and Border Patrol has asked them to perform.
    I would say any time you come down here from now until the 
end of this mission there will be some people that are going 
out, some people that are coming in, some are performing a 
mission, some are being oriented, some are being processed to 
either come into the mission or to leave the mission. That is 
why my intent is to make sure that 6,000 soldiers are in 
support of the Customs and Border Patrol on any given day 
throughout this operation. That is it.
    There will be about 800 people that are never going to be 
in direct support of the Customs and Border Patrol that perform 
functions that enable the rest of the force to be here to be 
able to be sustained to make sure they are logistically 
supported, administratively supported, and the liaisons and the 
planners are not in direct support of the Border Patrol because 
they are not absolutely doing tasks that the Border Patrol 
request them to do but without that overhead which is extremely 
lean.
    Eight hundred out of the 6,200 to perform that function is 
a very lean overhead to put your headquarters and your 
sustaining force in there and that is what we have done. 
Basically five out of every six soldiers that are down here are 
indirect support of the Border Patrol. The others that are down 
here are absolutely essential to being able to perform this 
operation so they honestly are in indirect support of the 
Customs and Border Patrol.
    If it weren't for this operation, they wouldn't be here. 
Now, that is a long answer but I wanted to make it absolutely 
transparent and clear exactly what we are doing. The numbers 
are really the wrong thing to focus on, Congressman. We were 
asked to bring about 6,000 people down here. Six thousand 
random people is not the answer.
    The answer is to bring in the right capabilities, the right 
skill sets, the right kind of equipment, the right kind of 
units to make them more effective. That is what we work very 
hard to do with the Customs and Border Patrol. We have tried to 
do this so it isn't one size fits all. We have done this with 
each of the nine sector chiefs and we have also done it with 
the Commissioner and with David Aguilar, the Chief of the 
Border Patrol.
    At the Washington level they are aware of what we are 
doing. It was bottom-up built by the sectors. They built their 
menu of what they wanted. The force cap was provided by the 
Department of Defense and within that 6,000 we are giving them 
all of the capabilities we possibly can generate within those 
numbers.
    Mr. Butterfield. Let me conclude by going back to the 
readiness issue that was brought up a few minutes ago.
    General Blum.  Yes, sir.
     Mr. Butterfield. Let me talk to you about the nondeployed 
units in the continental U.S. Are you comfortable with their 
readiness level? I know you talked about the challenges that 
you face.
    General Blum.  I am extremely comfortable with their 
personnel fill and the quality and professionalism. We probably 
have the youngest force, most experienced force, most committed 
force. Probably the best human resource National Guard this 
nation has ever had.
    What I am concerned about and will continue to be concerned 
about until I get all of the equipment that is required to 
perform our military support jobs as well as our homeland 
defense missions as well as our support to Homeland Security 
missions, what is traditionally called state missions which 
means respond to weather pattern storms or natural disasters, 
but we also have to be ready for a WMD event or multiple WMD 
events or counter-terrorist events and that requires the 
National Guard to have in their hands trucks, radios, night 
vision goggles, aviation.
    Mr. Butterfield. It is our job to give it to you unless it 
is reallocated from the other service.
    General Blum.  Right, sir. We are working very hard. I want 
to be very open with this. The Army is working diligently with 
us in a collaborative manner to identify what our shortfalls 
are and come up with a strategy near-term, not long-term, that 
they are sincere about this. The Army has already moved new 
equipment that was not supposed to come to the Guard in 
hurricane states to better prepare us in North Carolina, South 
Carolina, Georgia.
    In fact, right in your home state, Congresswoman. We have 
moved equipment that we would not have normally gotten because 
we have the retention on this issue. Frankly, they have 
deferred fielding it to active duty units here that don't 
perform that mission to make that happen. That having been 
said, we are still $21 billion necessary to buy the equipment 
that comes to us, or the equipment must come to us either from 
returning it overseas and basically rejuvenating equipment, 
resetting the equipment, and then reissuing it to us.
    It is not an easy question to answer. It is a complex issue 
but here is what I can say. The senior leadership of the Army 
is committed to working with us to fix that problem and I know 
the Congress is committed to working with us to fix that 
problem.
    I just don't want to throw a bill on the table without 
having exhausted the strategies to reduce that bill for the 
American taxpayer. When I come before the Chairman's Committee 
and say this is what the National Guard needs, I want to do 
that after we have exhausted some other alternatives to pay 
that bill down for the American public.
    Mr. Butterfield. We have got to work in a bipartisan matter 
to make that happen.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. I thank the gentleman.
    The gentlelady from Virginia, Ms. Drake, had another 
question.
    Ms. Drake. Thank you, Mr. Chairman. Just two things quickly 
for Chief Calhoon. First of all, is there any coordination at 
all with Mexican law enforcement? Are they working with you on 
this issue? The second one deals with the issue of human 
trafficking. Is that something that we are able to identify? 
Are we seeing more of it and determining if someone is a victim 
rather than voluntarily crossing?
    Chief Calhoon. On the issue of working with the Mexican 
government, we have several program in place. In the Yuma 
sector we maintain a daily dialogue with our Mexican liaison 
people and various Mexican law enforcement entities who share 
information, talk about particular personnel who are very 
apprized about what is going on operationally in Mexico.
    We are setting up a checkpoint and what the focus of that 
checkpoint is all about. That works very well. We are also able 
to work with the local Mexican police department during 
incidents if there are shots fired. We can call them directly 
on the phone line. That is a very good working relationship.
    We have a prosecution program in place where we target 
Mexican guide smugglers and drivers. The acronym for it is 
OASISS. It is a program where we can prosecute in Mexico people 
who have been identified in the United States who do not meet 
the criteria for prosecution in the United States. That program 
has been in effect for several years now and we were able to 
prosecute people in Mexico in essence for a crime that was 
orchestrated in the United States but impacted Mexican 
citizens.
    That is the legal nexus for that prosecution. That has been 
very effective. We have actually removed guides and smugglers 
and drivers from the organization for quite a lengthy period 
before then. That does impair the ability of the smuggling 
organizations operations. Human smugglers is not an accurate 
title. The smugglers in general may choose to smuggle human 
cargo based on its profitability. Some alien smuggling 
organizations have branched out and become narcotic smuggling 
organizations based on increased investigation. Human 
smuggling, as I alluded to before, the cost.
    Ms. Drake. I don't mean someone who is voluntarily hiring 
them to come over. I mean where they are actually trafficking 
people. Have you seen much of that on the border against their 
will?
    Chief Calhoon. Oh, against their will.
    Ms. Drake. Against their will.
    Chief Calhoon. Very little incidence of people being 
smuggling against their will unless you're talking about 
infants that are being brought in.
    Ms. Drake. No, people that are actually duped into it or 
taken for the purpose of human trafficking.
    Chief Calhoon. No. The investigating agency that would have 
responsibility for that is the Immigration and Customs 
Enforcement Agency. Most of those crimes that you are talking 
about would fall into their purview. The Border Patrol in 
general----
    Ms. Drake. It is not something you see.
    Chief Calhoon. You are basically talking about slavery.
    Ms. Drake. Slavery.
    Chief Calhoon. We rarely encounter that. That is a crime 
that is fully developed once they get to their destination and 
found in the basement of a restaurant where they are being 
forced to work for a pittance.
    Ms. Drake. Okay. Thank you.
    Thank you, Mr. Chair.
    The Chairman. I thank the gentlelady.
    I think we have had a very constructive hearing today. Let 
me follow up with something that I was informed us as we 
started the hearing. That was that the Senate has appropriated 
or has taken an amendment into their appropriations bill I 
believe by Senator Sessions of Alabama that $1.8 billion for 
some 350 miles of fence. He was the author of the fence 
amendment on the Senate side while I offered the amendment on 
the House side. I think a fence is coming. A very substantial 
large fence construction. I think that is going to be the will 
of Congress. That is my take on that. And the American people.
    Chief Calhoon, when we built the fence in the San Diego 
sector, at the time we built it we had a border patrol of about 
8,000 people. Between 6,000 and 8,000. It came up slightly as 
we were building the fence. We had at one point almost two-
thirds of all the border for the entire United States, southern 
border and the Canadian border in San Diego County in that 
number one smuggler's corridor.
    That is when we had no impediments and you could watch 
smugglers bringing people across and military formations 
sometimes by the thousands, trucks ramming the border. We built 
the fence and now we totally eliminated the drug drive-thrus. 
We reduced the smuggling of people and narcotics by more than 
90 percent. Totally eliminated the border gangs.
    My question to you is this. As we construct this fence 
across the southwest, in your estimation if we accompany that 
construction with an appropriate number of border patrol agents 
to man it, and the point I was making with the San Diego sector 
was after we built the fence we were able to pull agents off 
that section because we didn't need as many and that was the 
whole point of the design of the fence by one of our national 
laboratories that said you need an impediment.
    You have to have something that stops people, that slows 
them down so the border patrol can do its job. If we construct 
this fence across the southwest border, presuming that we 
accompany it with an appropriate number of new border patrol 
agents. Will it be effective? Will that be an effective 
impediment to the penetration of our borders by people who are 
coming across without authorization?
    Chief Calhoon. Yes, it will.
    The Chairman. Do you think in light of the fact that we now 
have in our Federal penitentiaries and our state and local 
penitentiaries and jails some 250 criminals from other 
countries around the world who come to the United States to ply 
their trade, most of them coming across the land border, that 
would have a reducing effect on that population?
    Chief Calhoon. Access or ability to cross the border?
    The Chairman. Yes, the ability to come in and commit 
crimes.
    Chief Calhoon. Right. Clearly found in the Yuman sector. We 
are getting another of the nine Border Patrol sectors with that 
technology. As we alluded to before, we are going to probably 
shift back to controlling cross-border traffic.
    The Chairman. So wouldn't you agree that the key then if we 
agree that building a border fence is effective and it tends to 
shift traffic, the key is to building the fence in a complete 
way and to have a border that is, in fact, a complete border. 
Would you agree with that prospect?
    Chief Calhoon. As one solution to the problem. It would be 
the longest solution in a time frame scenario. There are other 
ways to do that.
    The Chairman. Well, let me ask you this. I have heard 
virtual fence utilized by the Department of Homeland Security. 
If you have a 1,000 people rush the border at the same time in 
a fairly limited area, assuming you have got the greatest set 
of sensors in the world and you have whistles and bells that 
will go off in your office until it drives you crazy but you 
have only got a limited number of personnel to handle that huge 
influx of people who come across with no impediment, no fence, 
how are you going to handle then with a virtual fence?
    How do you handle what your people used to call the so-
called bonsai attacks where thousands would come across at one 
signal? How do you do that when you only have 25 to 30 agents 
in that sector?
    Chief Calhoon. I think our difference is a matter of 
semantics. I would agree that by analyzing and finding an 
effective tool it sounds like perhaps maybe you will get 300 
miles of good border security. Those rural areas where there is 
less traffic where agents are able to respond to longer 
distances around the border, technology whether that is sensor 
or whether that is stoplight imagery, whether it is an aircraft 
with infrared radar. That is quick to come on and will continue 
to be utilized.
    The Chairman. Okay. Can we say that we agree on the first 
350 miles?
    Chief Calhoon. Not sure.
    The Chairman. We are going to put you down as not undecided 
on that. That is as good as I can do. Can you cross-examine him 
a little more, Trent?
    Thank you very much, Chief.
    General Pineda, we would like to see you keep flying. That 
is my personal feeling. I don't know how Mr. Butterfield and 
the other members feel but you have this Civil Air Patrol 
capability. You have got good visual. Obviously good optics in 
your aircraft. Good communication. I was hoping because we put 
the first part of the house built passed in the House of 
Representatives had a humanitarian component.
    That humanitarian component was to have interlocking 
cameras on this section between Calexico, California and 
Douglas, Arizona, about 392 miles, by May 31st. The reason we 
put that down while we were building the fence was to try to 
get some help before the hot season got here, before the 400 or 
so people who die every year in the desert started to expire.
    The last time we checked, in fact, I think my brother sent 
me the statistics a couple weeks ago, it was 77 people had died 
in the desert. Our thoughts were that perhaps the Civil Air 
Patrol could have as well as sending critical information to 
the Border Patrol with their high-tech capability on these 
small aircraft, send them information on smuggling operations. 
They could also save some lives so I think it is important to 
get you folks back in the air.
    You have now finished this training mission. From my 
perspective I think you have demonstrated you can do it and I 
am going to work with the Air Force and work with DOD to try to 
keep you in the air. I think that helps us from a humanitarian 
point of view. That will save some lives. I think it will also 
assist the Border Patrol.
     You folks in the Border Patrol, Chief, you have used CAP 
before, haven't you?
    Chief Calhoon. Yes.
    The Chairman. Have you always had a good relationship with 
them, a good working relationship?
    Chief Calhoon. They are not at odds with us.
    The Chairman. From the Chief that is a yes.
    General Blum, anything else you would like to tell us here?
    General Blum.  No, sir. I just thank you for your attention 
and your very pointed questions, very germane questions. They 
help clarify exactly what the National Guard is doing and what 
the National Guard is not doing and was never intended to do in 
this mission. That has been helpful if for no other reason to 
have this hearing.
    The Chairman. Thank you. I think you have clarified mission 
effectively.
    Let me ask are there any other members of the panel who 
would like to ask anymore questions?
    Mr. Grijalva, do you have anything more?
    Mr. Grijalva. Yes. Thank you, Mr. Chairman. Just a couple 
of follow-ups. Based on the Senate action----
    The Chairman. Before you go, Mr. Calvert has got to leave. 
I just want to say publicly thank you, Ken, for coming down. We 
greatly appreciate your attendance and we will see you soon. 
See you on the floor.
    Mr. Calvert. Thank you, sir.
    The Chairman. Mr. Butterfield, you are leaving, too?
    Mr. Butterfield. Yes.
    The Chairman. Is it something I said?
    Mr. Butterfield. No, you are still my friend, Mr. Chairman.
    The Chairman. Okay. Thank you so much. You have made the 
long-run with us all the way from North Carolina to Michigan to 
here. We appreciate you, Mr. Butterfield.
    Mr. Grijalva, go right ahead, sir.
    Mr. Grijalva. Yeah, very quickly. If I may, Colonel, and 
also I think this is a pertinent question perhaps for the 
Chairwoman as well. As the Chairman said, the Senate has taken 
action on the emergency supplemental to the Department of 
Defense. I think it is earmarked $2 billion for fencing along 
the U.S./Mexico border primarily. I don't know yet how much 
that translates into miles. Given Federal spending it could be 
three miles but it possibly could be more than that.
    Nevertheless, my question is the training mission and 
responsibility that you have, Colonel, and the issue of 
building that kind of barrier infrastructure be it a fence, be 
it a wall, be it those kinds of things, short-term impact, 
long-term impact on that mission if any. Just to get a comment 
on that.
    Colonel Hancock. Sir, we believe that the collaborative 
effort among all land managers and, if I could point out again, 
we are the land managers for Barry Goldwater West. The U.S. Air 
Force Base is the manager for the Barry Goldwater East. The 
Department of Interior, Wildlife Service agency have been 
working with us also. Again, also got the Arizona Game and Fish 
Department involved. All stakeholders involved with a pretty 
good plan in place because the Department of Interior has been 
diligent.
    We don't squeeze out protection for only 37 miles. There is 
a gap again maybe at which has a second impact on endangered 
species Froghorn which may force the Department of Interior 
Fish and Wildlife Service to begin to restrict other activities 
that also impact the environment. If we don't do this in 
coordination with other agencies, we build a fast and long 
effort of events along our portion of the range. It maybe 
solves a lot of issues with production. Then we see 
restrictions over the available air space on a daily basis. 
That is our concern. It has to be coordinated so we don't 
squeeze it in somebody else's area of responsibility.
    Mr. Grijalva. And I do want to thank you.
    Mr. Chairman, I think what the Colonel and his predecessors 
have done in setting up a cooperative collaborative stewardship 
of that land balancing some very delicate environmental issues 
with the overall mission of the services I think is phenomenal 
and I would suggest that be looked at very closely as a model 
because it is very difficult work.
    Madam Chairwoman, any response to the issue of a fence, the 
75 miles that you have contiguous, what it means or doesn't 
mean to the people you represent?
    Ms. Juan-Saunders. We would support a fence which could be 
constructed. We initially supported a smaller fence but later 
found out they changed it to a larger design and then came back 
to consult with us regarding those changes. The other concern 
we have is we are not in support of elaborate ceremonies so the 
transborder crossing issues are limited. There is also a 
concern about the type of fence found from Customs and Border 
Protection regarding those concerns.
    Mr. Grijalva. Thank you.
    If I may, Chief, we have talked about all the security 
issues and given you are 45 days here but your experience in 
Nogales as well on the border community. There is a need in 
this part of the region being a border community particularly 
with agriculture for a reliable, secure, consistent 
availability of workers to deal with 40 percent of what we eat 
in vegetables in this country given a period of time.
    Without compromising your mission, your opinion on how we 
continue to work and assure a reliable work force for the 
economic vitality of this particular region. It is an open-
ended question but I think everybody that has worked here and 
works in this sector understands that is part and parcel of the 
mission that you have without compromising the overall mission 
but dealing with this reality.
    Chief Calhoon. Our primary mission under the Homeland 
Security is the prevention of terrorists and weapons of mass 
destruction from entering the United States. Immigration is a 
secondary issue there. We would support issues that would make 
the border a safer environment. It would remove people who 
might be there for economic purposes and make our ability to 
identify and/or arrest and seize those instruments.
    Mr. Grijalva. Thank you, Mr. Chairman. With that I yield 
back.
    The Chairman. I thank the gentleman and to everyone.
    Colonel, did you have a final----
    Colonel Hancock. There is concern also the Air Force Base. 
Again their are almost simultaneously in cooperation with each 
other. It is not just the impact on the base but anybody that 
would make it through the Air Force portion of the range. Those 
are very important. The bombing range is live impact high-
explosive bombing ranges that the Air Force operates and the 
Marine Corps and the Navy, too the Air Force ranges, extremely 
impact the ranges which also is a danger in that area.
    The Chairman. Thank you, Colonel. We need to look at the 
detail as we work this plan for the range.
     Thanks to everyone that is here. Chairwoman, I want to let 
you know also Ed Pastore was your champion in making sure that 
you had an opportunity to be here and talk about your part of 
the border. That is a very important issue and Ed did a good 
job of that.
    I want to thank all the members for participating and our 
great panel. We have a challenge here and it is a challenge 
that requires us to balance our humanitarian concerns and the 
humanitarian ethic with the need to secure our borders. I think 
it is clear that post 9/11 border security is no longer simply 
an immigration issue. It is a national security issue and the 
House of Representatives has moved out to answer to the 
American people and meet this challenge and we are going to do 
it by building an enforceable border.
    I think the details on how you do that and how you do it 
effectively and efficiently are still being worked and put 
together. I think the American community is coming together in 
consensus on this major proposition that we need to secure our 
border. We need to know who is coming across and what they are 
bringing with them. Your testimony today has contributed, I 
think, greatly to the solution that we will be working over the 
next many months.
    Thanks a lot. A lot of you came from a long way and it was 
inconvenient to be here but we appreciate your. We appreciate 
all the great people of Yuma for being with us and Congressman 
Grijalva for hosting us here in your district. Colonel, thanks 
for letting us come on this great base. Your folks serve this 
country so well and so courageously. Please let all of your 
people in uniform know that we really appreciate being here. I 
think it is the first time the Armed Services Committee has 
held a hearing here.
    The last thing, the major part of this base is named after 
Bob Stump, my great predecessor who is Chairman of the Armed 
Services Committee. He joined the Navy at the age of 17. 
Actually 15. I think he was 16 when he got in. He was a rodeo 
cowboy, state legislator and a U.S. Congressman, head of the 
Veteran's Committee and the Armed Services Committee. His seat 
is now held by Trent Franks who is I think filling those shoes 
very effectively. What a wonderful guy you are, Trent.
    Bob Stump had one model and that is, ``Let's serve this 
country.'' That is what we have to do with this policy of 
border patrol. Let's serve out country and let's do the right 
thing for America. Thank you and the hearing is adjourned.
    [Whereupon, at 3:47 the Committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             August 2, 2006

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             August 2, 2006

=======================================================================

      
      

              STATEMENT OF REP. SILVESTRE REYES (D-TX) ON

           ``U.S. SOUTHERN BORDER SECURITY NATIONAL SECURITY:

            IMPLICATIONS AND ISSUES FOR THE ARMED SERVICES''

                     HOUSE ARMED SERVICES COMMITTEE

                             YUMA, ARIZONA

                             AUGUST 2, 2006

    Mr. Chairman, I am pleased to be here to take part in this 
afternoon's hearing on border security and implications for America's 
armed services. I also appreciate our panel of witnesses joining us 
today.
    As you know, this hearing is one in a series scheduled by the House 
Republican leadership for July and August on border security and 
immigration. I maintain that these hearings are more about politics 
than policy, and that the American people would be far better served if 
Congress was instead working to reach a compromise on meaningful border 
security and immigration legislation.
    However, as a 26 \1/2\ year veteran of the United States Border 
Patrol and a member representing a congressional district on the U.S.-
Mexico border, I believe I have a responsibility to share my experience 
with my colleagues, with the hope that almost five years after the 
terrorist attacks of September 11, 2001, Congress and the Bush 
Administration will finally do what needs to be done to secure our 
borders and keep America safe.
    With that being said, I would like to touch on an issue of great 
importance to our national security, and that is the readiness levels 
of our military and particularly of the Army and the National Guard. I 
will be the first to say that the National Guard has been doing 
exceptional things for this country. They have valiantly answered every 
call, and I know that they will continue to perform with admirable 
courage in the future.
    I am concerned, however, that we are handicapping their efforts 
with this border security mission. I am also troubled by the potential 
for degraded unit readiness and shortages of equipment and personnel, 
which could affect the ability of the National Guard to fulfill its 
mission now and in the future. I look forward to hearing from General 
Blum, in particular, on these important issues.
    We also need to be mindful of the fact that to fund this new Guard 
mission, $1.9 billion has been redirected from other defense spending 
priorities. Of course, we would not be in this unfortunate situation if 
Congress had been funding the Border Patrol, which is the agency 
charged with securing our nation's borders, at the necessary levels.
    Since coming to Congress, I have consistently lobbied my colleagues 
for greater resources for border security, including additional Border 
Patrol agents, equipment, and technology; more immigration inspectors 
and judges; and thousands of new detention beds so we can end the 
absurd practice of catch-and-release of other-than-Mexicans, or OTMs, 
once and for all.
    Yet in every instance, the President and the leadership in Congress 
have failed to deliver these necessary resources. Congress is already 
800 Border Patrol agents and 5,000 detention beds short of just what 
was promised in the 9/11 Act. Clearly, almost five years after the 
terrorist attacks of September 11, 2001, the Administration and 
Congress have a lot of work yet to do.
    Over eleven years ago, while I was still Chief of the El Paso 
Sector of the Border Patrol, I testified before the House Judiciary 
Committee, Subcommittee on Immigration and Claims, about the border 
security strategy we implemented successfully in El Paso known as 
Operation Hold the Line. At that time, in response to a question from 
my friend from California, Mr. Hunter, I testified that border fencing 
can be an essential tool for curbing illegal entries in communities 
like El Paso or San Diego and other densely populated, urban areas of 
the border region. Since being elected to Congress almost a decade ago, 
I have consistently supported Mr. Hunter's efforts to facilitate the 
construction of a border fence in the San Diego area.
    Unfortunately, however, there are no one-size-fits-all solutions 
for border security, and that is why I oppose the 730-mile border fence 
provision included in H.R. 4437, as well as proposals for a nearly 
2000-mile fence to run the entire length of the U.S.-Mexico border.
    In communities with large numbers of people in close proximity to 
the border where there would otherwise be thousands of illegal entries 
per day, it makes sense to construct and maintain a physical barrier at 
the border. On the other hand, it is simply not worthwhile to build 
fencing through remote desert and other areas of tough terrain, where 
the number of attempted entries is comparatively much lower.
    Instead of building 700 miles of fence at an estimated cost of $2.2 
billion-an estimate that many believe to be very low--we could invest 
that money in the personnel, equipment, and technology that will 
provide a meaningful solution to our border security concerns. For 
example, that amount of money would be enough to recruit, train, equip, 
and pay the salaries of enough new agents to double the current size of 
the Border Patrol.
    Not only would construction costs on a 700-mile fence be 
exorbitant, but to guard and maintain hundreds of miles of fencing 
often in remote areas would be a nightmare for the Border Patrol in 
terms of cost, personnel, and logistics. Just to put the amount of 
fencing we are talking about into perspective, that would be like 
watching over and maintaining a fence built from Chicago to Atlanta.
    Furthermore, depending on the geography of an area, a wall can 
actually be a hindrance to the Border Patrol as they attempt to monitor 
who or what may be coming at them from the other side of the border.
    Instead, in these more remote areas our limited border security 
resources would be much better spent on additional personnel, 
equipment, and technology such as sensors to create what is often 
referred to as a ``virtual fence.'' A virtual fence could also be 
implemented more quickly and therefore could help us gain operational 
control of our borders sooner.
    The virtual fence is the approach preferred by the Border Patrol. 
The Chief of the Border Patrol, David Aguilar, recently testified 
before the House Armed Services Committee, of which I am a member, in 
opposition to a border-wide fence and in support of the right mix of 
personnel, physical barriers, and technology to create a virtual fence 
at the border. The Acting Chief of the Laredo Sector, Reynaldo Garza, 
gave similar testimony earlier this month at a field hearing I attended 
in Laredo, Texas. Congress needs to listen to the advice of the Border 
Patrol in these matters, since they are the ones with the boots on the 
ground in the border region and are the real-world experts in border 
security.
    It is also important to remember that addressing our border 
security infrastructure is only one part of what we need to do to fix 
our country's border security and illegal immigration problems. That is 
why I have long supported providing the resources required to enforce 
immigration laws in our nation's interior, including tough sanctions 
against employers who hire undocumented workers. If it were harder for 
an undocumented worker to get a job, fewer of them would try to enter 
this country illegally, which would allow the Border Patrol to focus on 
those who may be trying to come here to do us harm.
    Also, all the walls in the world would do nothing to address the 
somewhere between 30 and 60 percent or so of those currently in this 
country illegally who, like the 9/11 attackers, actually came to the 
U.S. legally on some kind of visa or through other legitimate means, 
and overstayed. A wall is not a panacea; there is much more that needs 
to be done to help keep America safe.

[GRAPHIC] [TIFF OMITTED] T2984.001

[GRAPHIC] [TIFF OMITTED] T2984.002

[GRAPHIC] [TIFF OMITTED] T2984.003

[GRAPHIC] [TIFF OMITTED] T2984.004

[GRAPHIC] [TIFF OMITTED] T2984.005

[GRAPHIC] [TIFF OMITTED] T2984.006

[GRAPHIC] [TIFF OMITTED] T2984.007

[GRAPHIC] [TIFF OMITTED] T2984.008

[GRAPHIC] [TIFF OMITTED] T2984.009

[GRAPHIC] [TIFF OMITTED] T2984.010

[GRAPHIC] [TIFF OMITTED] T2984.011

[GRAPHIC] [TIFF OMITTED] T2984.012

[GRAPHIC] [TIFF OMITTED] T2984.013

[GRAPHIC] [TIFF OMITTED] T2984.014

[GRAPHIC] [TIFF OMITTED] T2984.015

[GRAPHIC] [TIFF OMITTED] T2984.016

[GRAPHIC] [TIFF OMITTED] T2984.017

[GRAPHIC] [TIFF OMITTED] T2984.018

[GRAPHIC] [TIFF OMITTED] T2984.019

[GRAPHIC] [TIFF OMITTED] T2984.020

[GRAPHIC] [TIFF OMITTED] T2984.021

[GRAPHIC] [TIFF OMITTED] T2984.022

                                  <all>

</pre></body></html>
